   STREAMLINING OF ADMINISTRATIVE
  ACTIVITIES AND FEDERAL FINANCIAL
ASSISTANCE FUNCTIONS IN THE OFFICE OF
 JUSTICE PROGRAMS AND THE OFFICE OF
COMMUNITY ORIENTED POLICING SERVICES

         U.S. Department of Justice
       Office of the Inspector General
                Audit Division

            Audit Report 03-27
               August 2003
   STREAMLINING OF ADMINISTRATIVE ACTIVITIES AND
   FEDERAL FINANCIAL ASSISTANCE FUNCTIONS IN THE
    OFFICE OF JUSTICE PROGRAMS AND THE OFFICE OF
       COMMUNITY ORIENTED POLICING SERVICES

                            EXECUTIVE SUMMARY

       Within the Department of Justice (Department), the responsibility for
managing Federal financial assistance programs is split primarily between
the Office of Justice Programs (OJP) and the Office of Community Oriented
Policing Services (COPS).1 The number and dollar value of Federal financial
assistance programs managed by the Department have grown substantially
over the last several years. The two offices awarded grants for about 96
programs and $5 billion for fiscal year (FY) 2002. The objective of our audit
was to identify activities and functions that could be streamlined to increase
operational efficiency within OJP and the COPS Office.

The Office of Justice Programs

       Since its establishment in 1984, OJP has been tasked with providing
grants to improve the nation's capacity to prevent and control crime,
improve the criminal and juvenile justice systems, increase knowledge about
crime and related issues, and assist crime victims. For FY 2003, OJP was
authorized 729 full-time equivalent (FTE) positions and had a budget of
about $4.2 billion.2 OJP is headed by an Assistant Attorney General and has
recently undergone a reorganization of its structure and operations.
According to OJP, the purpose of the reorganization is to become more
effective, reduce duplication, and improve the delivery of services to
grantees. OJP’s current organization structure is shown in the following
chart.




       1
         Federal financial assistance is provided through various means such as grants,
cooperative agreements, and reimbursable agreements. The terms are used
interchangeably throughout this report.
       2
         At the time of our audit, OJP was under a hiring freeze and as of February 28,
2003, had 747 staff on board. This number included 47 staff for OJP’s Office of Domestic
Preparedness that was transferred to the Department of Homeland Security effective
March 1, 2003.

                                            -i-
       OJP’s Organization Structure3




       Source: OJP

       The major changes under OJP’s reorganization were:

       •   Two of the six program offices (Drug Courts Program Office, and
           Corrections Program Office) were moved to the Bureau of Justice
           Assistance.

       •   One of the six program offices (Executive Office for Weed and
           Seed) was moved to a new office called the Community Capacity
           Development Office.

       •   Four of the eight support offices (Office of the Comptroller, Equal
           Employment Opportunity Office, Office of Budget and Management
           Services, and Office of Administration except the Information
           Resources Management Division) were combined into a new Office
           of Management and Administration.

       •   One of the eight support offices (American Indian and Alaskan
           Native Office) was moved to the new Community Capacity
           Development Office.




       3
        For a description of OJP’s bureaus, program offices, and support offices, see
Appendix 1.

                                            - ii -
     •    The Information Resources Management Division of the Office of
          Administration was moved under the new Chief Information Officer.

     •    The Office of Congressional and Public Affairs was renamed the
          Office of Communications.

     •    The Violence Against Women Office was renamed the Office on
          Violence Against Women.

       OJP's funding programs are divided into two main categories: formula
grants and discretionary grants. Formula grants are awarded to State and
local governments based on a predetermined formula using, for example, a
jurisdiction's crime rate, population, or other factors. States are generally
required to pass a significant portion of formula awards through to local
agencies and organizations in the form of subgrants. Discretionary grants
are awarded on a competitive basis to public and private agencies and
private non-profit organizations. However, certain discretionary programs,
such as funding to the Boys & Girls Clubs of America and the National Crime
Prevention Council, are awarded on a noncompetitive basis, consistent with
congressional earmarks. As shown in the following graph, OJP’s bureaus
and program offices awarded more than $31 billion in Federal financial
assistance for FYs 1987 through 2002.

                                 Amount of Funds Awarded by OJP
                                      FY 1987 to FY 2002
                                            (Billions)
         $5                                                                        $4.6 $4.7
                                                                     $4.2
         $4                                              $3.5 $3.6          $3.4
         $3
                                                  $2.0
         $2                                $1.4
                          $0.9 $0.9 $1.0
         $1   $0.4 $0.6
         $0
              FY    FY    FY   FY   FY     FY      FY    FY   FY     FY     FY     FY   FY
              87-   91    92   93   94     95      96    97   98     99     00     01   02
              90

     Source: OJP

The Office of Community Oriented Policing Services

      The COPS Office was established in 1994 as a result of the Violent
Crime Control and Law Enforcement Act of 1994 (1994 Crime Act). The
single largest component of the 1994 Crime Act was Title I – the Public
Safety Partnership and Community Policing Act of 1994. The 1994 Crime
Act authorized $8.8 billion over 6 years to fund the addition of community
oriented policing officers and advance community policing nationwide. The

                                             - iii -
COPS program was extended beyond FY 2000 by the FY 2001 Commerce-
Justice-State Appropriations Bill. For FY 2003, the COPS Office was
authorized 235 FTE positions and had a budget of about $923 million.4 As
shown in the following graph, in FYs 1994 through 2002, the COPS Office
awarded about $8 billion in grants in support of its mission to increase
community policing.5
                                   Amount of Funds Awarded by COPS
                                         FY 1994 to FY 2002
                                               (Billions)
                            $1.6                                  $1.4
                            $1.4            $1.2 $1.2
                            $1.2                                         $1.1
                                                          $1.0
                            $1.0
                            $0.8                                                             $0.7
                                                                                 $0.6 $0.6
                            $0.6
                            $0.4
                            $0.2   $0.1
                            $0.0
                                       FY   FY      FY     FY      FY     FY     FY    FY    FY
                                       94   95      96     97      98     99     00    01    02

                       Source: COPS Management System

      To implement the COPS program, in FY 1994 the Attorney General
created the COPS Office as a separate office from OJP. The COPS Office is
headed by a Director appointed by the Attorney General. At the time of our
audit, it operated under the following organization structure.

                        The COPS Office’s Organization Structure
                                                    DIRECTOR

                                   CHIEF OF STAFF              GENERAL COUNSEL




                     DEPUTY DIRECTOR                                                 DEPUTY DIRECTOR
                     FOR MANAGEMENT                                                   FOR COMMUNITY
                                                                                   POLICING DEVELOPMENT


ADMINISTRATION   EXTERNAL      MONITORING           COMPLIANCE          GRANTS           TRAINING     PROGRAM POLICY,
                  AFFAIRS                                           ADMINISTRATION         AND          SUPPORT AND
                                                                                        TECHNICAL        EVALUATION
                                                                                        ASSISTANCE


                                                                                                             DOJ
                                                                                                          RESPONSE
                                                                                                           CENTER

Source: COPS Office

       4
         At the time of our audit, the COPS Office was under a hiring freeze and as of
February 28, 2003, had 155 staff on board.
       5
         The FY 1994 total was $148 million for Police Hiring Supplement grants awarded by
OJP but administered by the COPS Office beginning in FY 1994. The FY 1995 total includes
$187 million for the Phase I COPS grants awarded by OJP for the COPS Office.

                                                      - iv -
      On October 25, 2002, the COPS Office submitted a proposal to the
Acting Assistant Attorney General for Administration to reorganize the COPS
Office. Under the proposed reorganization, the COPS Office would have an
Office of General Counsel and three deputy directorates that report to the
Director. The COPS Office would have eight divisions, instead of the current
seven, plus the response center. On February 11, 2003, the Attorney
General approved the COPS Office’s revised organization structure. As of
March 19, 2003, the COPS Office’s reorganization was pending approval by
the Office of Management and Budget (OMB).

Audit Results

       Our audit determined that Federal financial assistance programs in the
Department are fragmented, resulting in reduced efficiency and higher costs
to award and administer Federal financial assistance funds to State and local
agencies. As described below, we made findings in the following areas:
structural overlap between the COPS Office and OJP, overlap in grant
programs between the COPS Office and OJP, lack of on-line grant application
processing in the COPS Office, overlap in OJP’s organization structure, and
inefficiencies in OJP’s automated grant management systems.

     Structural Overlap Between the COPS Office and OJP

           The Department’s major financial assistance programs are split
     between OJP and the COPS Office, with both agencies awarding and
     administering grants to State and local law enforcement agencies that
     are sometimes for similar purposes. As illustrated in the following
     charts, from FY 1999 to FY 2002, the COPS Office’s management and
     administration (M&A) costs per program dollar have been higher than
     OJP’s, while COPS’s M&A costs per grant administered have been lower
     than OJP’s. However, COPS’s costs per grant administered have been
     increasing while OJP’s costs have been decreasing. If the trend
     continues, the COPS Office will spend more M&A costs per grants
     administered than OJP in FY 2004.




                                     -v-
                Comparison of Actual M&A Costs for COPS and OJP

 A c tu a l M & A C o s ts P e r P ro g ra m            A ctu a l M & A C o sts P e r G ra n t
         D o lla r F r o m F Y 1 9 9 9                  A d m in is te re d F ro m F Y 1 9 9 9
                to F Y 2 0 0 2                                       to F Y 2 0 0 2
 6%                                                    $ 7 ,0 0 0
 5%                                                    $ 6 ,0 0 0
 4%                                                    $ 5 ,0 0 0
                                                       $ 4 ,0 0 0
 3%
                                                       $ 3 ,0 0 0
 2%
                                                       $ 2 ,0 0 0
 1%                                                    $ 1 ,0 0 0
 0%                                                           $0
           FY      FY      FY      FY                              FY    FY     FY    FY
           99      00      01      02                              99    00     01    02

                COPS        O JP                                      COPS       O JP

Source: Office of the Inspector General (OIG) Analyses of Actual Cost and Grant Award Data

              The COPS Office’s M&A costs per grant administered have been
       increasing because the grants administered by the COPS Office have
       been significantly reduced in recent years, but the COPS Office’s
       personnel costs have not decreased correspondingly. OJP’s M&A costs
       per grants administered have been decreasing because OJP has
       significantly increased its grants administered in recent years while
       keeping its personnel costs relatively constant.6

              The COPS Office transfers significant portions of its appropriated
       funds to OJP to administer. Although these funds (known as pass-
       through funds) are appropriated in the COPS Office’s budget, the COPS
       Office transfers the funds to OJP and, in most cases, OJP assumes full
       responsibility for management and administration of the funds. The
       COPS Office funds are passed through to OJP in various ways. Most of
       the funds passed through to OJP are mandated by Congress in the
       COPS Office’s annual appropriations language, such as for the Police
       Corps program in FY 2002. The authorizing language in the COPS
       Office’s approved FY 2002 budget provided that the Police Corps funds
       totaling about $14.4 million would be transferred to OJP to administer.
       In addition, the COPS Office passes funds to OJP through discretionary
       pass-throughs that occur when the COPS Office and OJP agree that
       6
          The analyses comparing the COPS Office’s M&A costs to OJP's M&A costs support
that the COPS Offices M&A costs per program dollar have been higher than OJP’s and that
the COPS Office’s M&A costs per grant administered are steadily increasing while OJP’s M&A
costs are decreasing. The analyses were macro analyses that do not take into account
other variables that could affect each offices cost to administer grants such as hiring freezes
and unexpected program changes.

                                             - vi -
             certain funds in the COPS Office’s budget would be either best
             managed by OJP or best managed jointly, such as for the jointly
             managed Comprehensive Indian Resources for Community and Law
             Enforcement (CIRCLE) program in FY 2001. In FY 2001, the COPS
             Office passed through $2 million to OJP for the CIRCLE program. The
             COPS Office also passes funds to OJP through earmarks that are
             legislative directives in the appropriations laws that dictate how to
             spend certain funds appropriated within larger funding programs.
             According to COPS officials, these funds are usually to continue
             projects previously administered by OJP or for programs that
             specifically fit within an existing OJP program. One such continuation
             project was the Safe Schools Initiative (SSI) in FY 2002. In FY 2002,
             COPS passed through $9,531,000 of earmarked funds to OJP for the
             SSI. As illustrated below, our audit determined that since FY 1999,
             the amount of funds that the COPS Office has passed through to OJP
             has steadily increased and reached almost 40 percent of the COPS
             Office’s total budget by FY 2002.

C O P S F u n d s P a s se d T h ro u g h to O JP             P e rce n t o f C O P S B u d g e t P a s s e d
       F ro m F Y 1 9 9 9 to F Y 2 0 0 2                      T h ro u g h to O JP F ro m F Y 1 9 9 9 to
                                                                               FY 2002
             $450
  Millions




             $400
             $350
                                                                40%
             $300
             $250                                               30%
             $200
             $150                                               20%
             $100                                               10%
              $50
               $0                                                 0%
                    FY    FY    FY      FY                                  FY     FY      FY      FY
                    99    00    01      02                                  99     00      01      02

Source: OIG Analyses of Budget Data

                    In addition to pass-throughs, the COPS Office has also entered
             into reimbursable agreements each year for OJP to perform services to
             help COPS carry out its mission. These services have included making
             payments to grantees, preparing monthly treasury reports, entering
             grant obligations and deobligations in the financial system, processing
             and verifying electronic direct deposit information, and maintaining the
             Letter of Credit Electronic Certification System accounts, among
             others. From FY 1999 through FY 2002, the COPS Office shifted a
             total of about $16 million of M&A funds to OJP through the use of
             reimbursable agreements for OJP to perform services related to
             programs administered by the COPS Office. However, we did note that
             the COPS Office has taken steps to reduce its use of OJP services by
             assuming responsibility for some functions previously performed by

                                                    - vii -
OJP such as reviewing and approving final grant award budgets,
providing financial management training to grantees, and coordinating
with the OIG to resolve and close COPS grantee audit reports.

Overlap in Grant Programs Between the COPS Office and OJP

       Our audit also identified overlap between the types of grants
awarded by the COPS Office and OJP. For example, the COPS
Universal Hiring Program (UHP) grants, Making Officer Redeployment
Effective (MORE) grants, COPS in Schools (CIS) grants, COPS Safe
Schools Initiative (SSI) grants, and COPS Secure Our Schools (SOS)
grants are sometimes duplicative of grants awarded by OJP under the
Local Law Enforcement Block Grants (LLEBG) program. While the
LLEBG grants allow payment for a broader variety of costs than the
COPS grants, the COPS UHP grants and CIS grants, as well as OJP’s
LLEBG grants, pay to hire officers to support community policing.
Also, both the COPS MORE grants and OJP’s LLEBG grants pay to hire
civilians and to purchase technology equipment such as computers. In
addition, both the COPS SSI and SOS grants and OJP’s LLEBG grants
pay to purchase equipment to help make schools safer. This overlap
resulted when Congress created multiple programs to fund similar
issues. However, both COPS and OJP officials told us that no formal
communication procedures exist between the two agencies to ensure
that grantees do not receive funds for similar purposes from both
agencies.

Lack of On-Line Application Processing at the COPS Office

       The COPS Office had developed an automated system, called the
COPS Management System, to track its grants from application review
to closeout. The COPS Office had also implemented several post-
award functions online such as allowing grantees to provide
information on grant progress using the “COPS Count” and performing
account maintenance functions. However, we determined that the
COPS Office had not developed a capability to receive grant
applications online and download the application data directly into the
COPS Office’s grant management system. Potential COPS grantees
must either mail, e-mail, or fax grant applications to COPS and then
COPS must manually enter the application data into the COPS
Management System for processing. COPS officials stated that the
online application capability would be addressed as part of the e-
government and Public Law 106-107 initiatives managed by OMB. The
COPS Office had created and filled an e-government program manager
position and established a business practices group to analyze its grant


                              - viii -
      application process and provide information to OMB for development
      and approval of an online application system.

      Inefficiencies in OJP’s Automated Systems

            OJP does not have a fully effective automated system to manage
      its Federal financial assistance funds. We found that OJP had more
      than 70 automated application systems in place. Some of these
      systems were developed by the individual components within OJP and
      duplicate information in other OJP systems. Despite having more than
      70 automated systems to help manage its Federal financial assistance
      funds, OJP still relies primarily on a manual system for processing
      grants. OJP uses a “Redbook” to process grants from application
      through award. The “Redbook” is a manual binder for each grant
      awarded to a particular grantee that contains all documentation, such
      as the grant application, documentation on the application review, the
      award package, and supporting information. The “Redbook” is
      assembled and routed through various OJP components for review,
      analysis, and certification.

            OJP has made efforts to automate some of the “Redbook”
      process, and some “Redbooks” now use the automated Grant
      Management System (GMS).7 However, this process is not completely
      automated using the GMS. The GMS “Redbook” process allows the
      users to complete required forms in the GMS, but the forms are then
      printed out and maintained manually in the “Redbook.” In addition,
      we noted additional inefficiencies related to the GMS system. Although
      we were told that the Assistant Attorney General for OJP said that all
      OJP components will use the GMS system, we found that GMS was
      used primarily by the program offices, and based on our interviews
      with GMS users, many users had complaints about the system. One
      drawback of GMS is that it only tracks grants from solicitation through
      grant award. The system does not maintain information on grant
      monitoring and closeout after the grant is awarded.

             OJP recognizes that its automated systems need to be
      streamlined and as part of its reorganization OJP hired a Chief
      Information Officer, who began addressing the GMS-related issues. In
      addition, during our audit OJP hired a consulting firm to evaluate
      different alternatives for implementing an effective grants
      management system at OJP. The consulting firm evaluated the
      following four alternatives:

      7
          The GMS system was initiated in December 1998 as a pilot program to streamline
the solicitation, application, and award of grants by using an automated system.

                                          - ix -
      •   Complete custom development of a new system.
      •   Purchase of a Commercial Off the Shelf (COTS) system.
      •   Integrating the current GMS system with COTS modules.
      •   Acquiring a Government Off the Shelf system.

      In its September 2002 report, the consultant recommended that
the best solution for OJP would be to integrate the current GMS
system with modules that would expand the system to manage grants
from beginning to end. In our judgment, the consultant’s report
presented a convincing case for expanding the GMS system.

       A helpful feature of the GMS is that it allows potential grantees
to submit applications online directly into the system. However, as
previously noted, the GMS system was used primarily by the program
offices. OJP’s bureaus, for the most part, were not using GMS. Some
bureaus used other automated systems that have online application
capability, but these systems were only used for 3 of the 47 grant
programs administered by the bureaus. As a result, online application
was not available for many grant programs administered by OJP
bureaus. On January 17, 2003, the Assistant Attorney General for OJP
mandated that all OJP bureaus and program offices use GMS to
process grant applications electronically. OJP needs to ensure this
mandate is implemented.

OJP’s Overlapping Organization Structure

       Within OJP, financial assistance programs are split among
numerous bureaus and program offices, resulting in reduced efficiency
in awarding and administering grants. The inefficient organization of
OJP has long been recognized by Congress, OMB, and OJP itself, but
numerous plans to reorganize and streamline OJP have not been
implemented. The current OJP administration has developed another
reorganization plan to streamline its operations and appears
committed to implementing the plan. OJP has begun implementing
this plan, which does contain some positive steps towards improving
the efficiency and effectiveness of Federal financial assistance
programs. Specifically, the plan calls for the creation of a Chief
Information Office responsible for improving OJP’s grant management
system. OJP recently hired a Chief Information Officer (CIO) to head
this office and the CIO has begun efforts to improve OJP’s grant
management system. OJP’s reorganization plan also calls for major
restructuring of its bureaus, program offices, and support offices to
streamline its operations and reduce duplication and overlap between
offices. While the restructuring is a positive step towards streamlining

                               -x-
      OJP’s operations, we concluded that it would not eliminate all the
      duplication between OJP’s bureaus and program offices. For example,
      we found that both OJP’s Bureau of Justice Assistance and Office of
      Domestic Preparedness award grants for equipment and materials to
      help State and local governments respond to terrorist acts. However,
      these offices remained separate in the reorganization.8

Recommendations

       In our report, we made eight recommendations to help improve the
efficiency of OJP and the COPS Office. We recommended the Director of
COPS and the Assistant Attorney General for OJP improve coordination
between the two agencies to eliminate any duplication of effort and ensure
that awards are not made to the same grantee for similar purposes. We also
recommended that the Director of COPS continue efforts to implement an
online application system for COPS grants that will allow potential grantees
to complete grant applications online and that directly downloads the
application data to the COPS Management System for processing. Further,
we recommended that the Assistant Attorney General for OJP continue
efforts to implement OJP’s current reorganization plan and to identify and
eliminate overlapping programs that will still exist after the reorganization is
implemented. We also recommended that OJP take steps to ensure the:
1) “Redbook” process is automated, 2) implementation of the consultant’s
recommendation to integrate the current GMS system with modules that
would expand the system to manage grants from beginning to end,
3) identification and elimination of duplicative automated systems within
OJP, and 4) bureaus use the GMS system to enable online application
capability for all bureau grant programs.




      8
        This duplication was eliminated within OJP on March 1, 2003, when OJP’s Office of
Domestic Preparedness transferred to the new Department of Homeland Security.
However, duplication may exist between OJP’s Bureau of Justice Assistance and the
Department of Homeland Security’s Office of Domestic Preparedness.

                                          - xi -
                              TABLE OF CONTENTS


BACKGROUND .................................................................................. 1

FINDINGS AND RECOMMENDATIONS .................................................... 7

FINDING 1: STREAMLINING THE OFFICE OF COMMUNITY ORIENTED
           POLICING SERVICES ........................................................ 7
           COPS Work Performed by OJP ........................................... 7
           Comparison of the COPS Office’s and OJP’s Costs to Manage
            and Administer Federal Financial Assistance Funds ............ 12
           Duplication Between COPS Grants and OJP Grants............... 13
           Capability for Potential Grantees to Apply for Grants Online .. 16
           Conclusion..................................................................... 16
           Recommendations .......................................................... 17

FINDING 2: STREAMLINING THE OFFICE OF JUSTICE PROGRAMS........... 18
           Growth and Reorganization Plans of OJP ............................ 18
           Issues Not Fully Addressed by the Reorganization Plan ........ 21
           Conclusion..................................................................... 25
           Recommendations .......................................................... 26

OBJECTIVES, SCOPE, AND METHODOLOGY ........................................... 27

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ............... 29

APPENDIX 1 – DESCRIPTION OF THE OFFICE OF JUSTICE PROGRAMS’
             BUREAUS, PROGRAM OFFICES, AND SUPPORT OFFICES..... 30

APPENDIX 2 – DESCRIPTION OF GRANTS AWARDED BY THE
             OFFICE OF JUSTICE PROGRAMS ..................................... 35

APPENDIX 3 – DESCRIPTION OF COMMUNITY POLICING GRANTS
             AWARDED BY THE OFFICE OF COMMUNITY ORIENTED
             POLICING SERVICES..................................................... 52

APPENDIX 4 – OFFICE OF JUSTICE PROGRAMS’ ORGANIZATION CHARTS
             BEFORE AND AFTER REORGANIZATION ........................... 56

APPENDIX 5 – DESCRIPTION OF AUTOMATED APPLICATION SYSTEMS
             USED BY THE OFFICE OF JUSTICE PROGRAMS.................. 57

APPENDIX 6 – OFFICE OF JUSTICE PROGRAMS’ RESPONSE TO THE DRAFT
             AUDIT REPORT............................................................. 64
APPENDIX 7 – OFFICE OF COMMUNITY ORIENTED POLICING SERVICES’
             RESPONSE TO THE DRAFT REPORT ................................. 68

APPENDIX 8 – OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
             SUMMARY OF ACTIONS NEEDED TO CLOSE THE REPORT ... 81
                                     BACKGROUND

Office of Justice Programs

        The Office of Justice Programs (OJP) was established in 1984 by the
Justice Assistance Act to develop the nation's capacity to prevent and control
crime, improve the criminal and juvenile justice systems, increase
knowledge about crime and related issues, and assist crime victims. OJP’s
initial organization included several previous entities from the Law
Enforcement Assistance Administration (LEAA), which had been created by
the Omnibus Crime Control and Safe Streets Act of 1968. The LEAA was the
first comprehensive State program designed to provide funding to States to
reduce crime. The OJP carryover organizations from LEAA included the
Bureau of Justice Assistance, the Bureau of Justice Statistics, the National
Institute of Justice, and the Drug Courts Program Office.

      Each year, OJP receives appropriations through the annual Commerce-
Justice-State (CJS) Appropriations Bill. As shown in the chart below, from
FY 1984 through FY 2003, OJP received about $34 billion to carry out its
mission.

                                        OJP Budget by FY
                                            (Billions)

              $5
              $4
              $3
              $2
              $1
              $0
              1 4
              1 5
              1 6
              1 7
              1 8
              1 9
              1 0
              1 1
              1 2
              1 3
              1 4
              1 5
              1 6
              1 7
              1 8
              2 9
              2 0
              2 1
              2 2
                 3
                8
                8
                8
                8
                8
                8
                9
                9
                9
                9
                9
                9
                9
                9
                9
                9
                0
                0
                0
                0
               9
               9
               9
               9
               9
               9
               9
               9
               9
               9
               9
               9
               9
               9
               9
               9
               0
               0
               0
               0
              1




            Source: OJP’s Enacted Budgets

      As of the end of FY 2002, OJP reported that it had awarded more than
68,700 grants, totaling more than $31 billion, for a wide variety of
programs. For a description of the major grant programs administered by
OJP, see Appendix 2. The charts below detail the number of grants and
funds awarded by OJP from FY 1987 through FY 2002.9

      9
           OJP was not able to provide data on grants it awarded from FY 1984 through
FY 1986.
                                            -1-
                                       Number of Grants Awarded by OJP
                                        From FY 1987 Through FY 2002

               FY   02                                                        12,791
               FY   01                                                       12,545
               FY   00                                                             14,331
               FY   99                             5,789
               FY   98                               6,273
               FY   97                           5,341
               FY   96                          5,121
               FY   95             2,108
               FY   94          1,373
               FY   93         1,052
               FY   92        967
               FY   91       492
           FY 87-   90       586

                         0     2,000    4,000   6,000    8,000 10,000 12,000 14,000 16,000

               Source: OJP


                                  Amount of Funds Awarded by OJP
                                     From FY 1987 to FY 2002
                                             (Millions)
    FY    02                                                                          $4,699
    FY    01                                                                        $4,551
    FY    00                                                        $3,444
    FY    99                                                                    $4,204
    FY    98                                                          $3,615
    FY    97                                                         $3,506
    FY    96                                    $2,017
    FY    95                      $1,448
    FY    94                 $1,018
    FY    93               $869
    FY    92               $881
    FY    91           $558
FY 87 -   90          $429

               $0            $1,000        $2,000          $3,000      $4,000            $5,000

           Source: OJP

 Office of Community Oriented Policing Services

       On September 13, 1994, President Clinton signed into law the Violent
 Crime Control and Law Enforcement Act of 1994 (commonly known as the
 “1994 Crime Act”). The 1994 Crime Act authorized $8.8 billion over six
 years, the purpose of which was primarily to fund grants for adding
 community oriented policing officers to the nation’s streets and advancing
 community policing nationwide. To implement the program, the Attorney


                                                    -2-
General created a new program office within the Department of Justice
known as the Office of Community Oriented Policing Services (COPS).

      Each year, the COPS Office receives appropriations through the annual
CJS Appropriations Bill. As shown in the chart below, from FY 1995 through
FY 2003, the COPS Office received about $11.3 billion to carry out its
mission.

                                  COPS Office Budget by FY
                                         (Billions)

                        $1.80
                        $1.60
                        $1.40
                        $1.20
                        $1.00
                        $0.80
                        $0.60
                        $0.40
                        $0.20
                        $0.00
                             5

                             6

                             7

                             8

                             9

                             0

                             1

                             2

                             3
                            9

                            9

                            9

                            9

                            9

                            0

                            0

                            0

                            0
                           9

                           9

                           9

                           9

                           9

                           0

                           0

                           0

                           0
                          1

                          1

                          1

                          1

                          1

                          2

                          2

                          2

                          2
                      Source: COPS’s Enacted Budgets

       As of the end of FY 2002, the COPS Office reported that it had
awarded more than 35,600 community policing grants, totaling more than
$8 billion, to deploy more than 116,700 additional officers to the nations
streets. For a description of the community policing grants awarded by the
COPS Office, see Appendix 3. The charts below detail the number of grants
awarded, funds awarded, and number of officers reported as funded from
the inception of the COPS program through FY 2002.10




      10
          The FY 1994 totals are for the Police Hiring Supplement grants awarded by OJP
but administered by the COPS Office beginning in FY 1994. The FY 1995 totals include data
for the Phase I COPS grants awarded by OJP for the COPS Office.

                                          -3-
                                 Number of Grants Awarded by COPS
                                    From FY 1994 to FY 2002

FY 02                                2,258
FY 01                           1,977
FY 00                                 2,362
FY 99                                                                     5,490
FY 98                                                                  5,120
FY 97                                                             4,916
FY 96                                                                          5,881
FY 95                                                                                            7,369
FY 94       247

        0         1,000      2,000      3,000        4,000      5,000      6,000        7,000       8,000




                                Amount of Funds Awarded by COPS
                                   From FY 1994 to FY 2002
                                            (Millions)
   FY 02                                     $665
   FY 01                                      $554
   FY 00                                         $636
   FY 99                                                                   $1,127
   FY 98                                                                                 $1,380
   FY 97                                                          $984
   FY 96                                                                        $1,210
   FY 95                                                                          $1,234
   FY 94              $148

            $0       $200      $400       $600         $800    $1,000     $1,200    $1,400       $1,600




                                 Number of Officers Funded by COPS
                                    From FY 1994 to FY 2002

    FY 02                     4,097
    FY 01                            6,106
    FY 00                              6,901
    FY 99                                                                 17,632
    FY 98                                                                                  22,142
    FY 97                                                                  17,874
    FY 96                                                                      18,767
    FY 95                                                                               21,241
    FY 94             2,003

             0              5,000             10,000          15,000           20,000           25,000

    Source for Above Graphs: COPS


                                               -4-
Prior Audits

      Since October 1994, the Office of the Inspector General (OIG) has
issued more than 450 audit reports on recipients of grants awarded by either
the COPS Office or OJP. The OIG has also issued reports on the
management and administration of the COPS program.

     •   In April 1999, the OIG issued an audit report summarizing the
         results of 149 audits of COPS grantees that we performed during
         FYs 1997-1998 (See Police Hiring and Redeployment Grants:
         Summary of Audit Findings and Recommendations, October 1996 -
         September 1998 (No. 99-14)). The 149 COPS grantees had
         received about $511 million in grant funds. The summary report
         concluded that based on the 149 individual COPS grant audits,
         significant numbers of jurisdictions audited were:
         overestimating salaries and benefits or including unallowable costs
         in reimbursement requests, (2) using State funds to supplant local
         funds, (3) not making a good-faith effort to fill locally-funded sworn
         officer positions, (4) not submitting or submitting late status
         reports to the COPS Office and OJP, and (5) not establishing
         systems to track the redeployment of officers into community
         policing. The summary report also concluded that some
         jurisdictions might have difficulty retaining COPS-funded officer
         positions with local funds at the conclusion of the grants. Since
         September 1998, we have continued to audit COPS grantees and
         have continued to identify the same findings reported in the
         summary report. The COPS Office strongly disagreed with our
         reliance on individual grantee audit reports and our interpretation of
         these findings.

     •   In July 1999, the OIG issued an audit report that reviewed the
         COPS Office’s and OJP’s administration of the $8.8 billion
         community-policing program. (See Management and
         Administration of the Community Oriented Policing Services Grant
         Program (No. 99-21)). This audit evaluated the: 1) COPS Office’s
         ability to meet President Clinton’s goal to put 100,000 additional
         police officers on the street by FY 2000, 2) COPS Office’s and OJP’s
         monitoring of grantees, and 3) quality of guidance provided to
         grantees to assist them in implementing essential grant
         requirements. The audit concluded that the COPS grants would not
         result in 100,000 additional officers on the streets by the end of
         FY 2000. This audit also determined that many grantees did not
         submit the required program monitoring and financial reports and
         that the COPS Office’s on-site monitoring reviews did not

                                     -5-
consistently cover all grant conditions. Moreover, the audit
concluded that the COPS Office and OJP did not adequately follow
up on deficiencies found in on-site reviews to ensure that the
deficiencies were corrected.




                          -6-
                  FINDINGS AND RECOMMENDATIONS

FINDING 1: STREAMLINING THE OFFICE OF COMMUNITY ORIENTED
           POLICING SERVICES

           From the beginning of the Office of Community Oriented Policing
     Services (COPS) in 1994, the COPS Office has relied on the Office of
     Justice Programs (OJP) to perform services related to the COPS
     program. In recent years the COPS Office’s management and
     administration (M&A) costs per program dollar have been higher than
     OJP’s. Also, the COPS Office’s M&A costs per grant administered have
     increased, while OJP’s M&A costs per grant administered have
     decreased. Moreover, we determined that the major COPS grants for
     hiring officers and civilians and for purchasing equipment, and the
     grants awarded by OJP under the Local Law Enforcement Block Grants
     (LLEBG) program overlapped, and no formal coordination existed
     between COPS and OJP to ensure grantees did not receive funds for
     similar purposes from both agencies. We also found that the COPS
     Office had not developed a capability to receive grant applications
     online and download the application information directly into its grant
     management system. Instead, grantees must submit applications and
     the application data must be manually input into the COPS’s grant
     management system.

COPS Work Performed by OJP

      While the COPS Office has responsibility for managing and
administering the community oriented policing services program for the
Department, the COPS Office has continually relied upon OJP to perform
services related to the administration of COPS Office activities. The COPS
Office’s reliance on OJP began at the inception of the COPS program in 1994
and has grown since then. We identified the following ways that the COPS
Office has relied on OJP:

     •   The COPS Office initially relied on OJP to award grants under the
         COPS program.
     •   The COPS Office has entered into reimbursable agreements with
         OJP over the past several years for OJP to perform services related
         to the COPS program.
     •   The COPS Office has passed through much of its budgeted funds to
         OJP during the past several years for OJP to administer.

     A discussion of each way the COPS Office relies on OJP follows.


                                    -7-
Initial COPS Grants Awarded by OJP. When the COPS Office was
established in 1994, it turned to OJP for assistance in awarding the
first COPS grants funded by Congress. Prior to passage of the 1994
Crime Act, Congress created the Police Hiring Supplement (PHS) grant
program that provided funds to State and local governments to hire
police officers. OJP’s Bureau of Justice Assistance (BJA) was
responsible for awarding and administering the PHS grants, which
were awarded in 1994. Because the BJA was already established and
experienced in awarding the PHS grants to State and local
governments, the Department had the BJA award the first phase of
COPS grants for the COPS Office. These were the 392 Phase I COPS
hiring grants awarded in FY 1995, less than 3 weeks after the COPS
Office was created, that allowed State and local governments to hire
new additional police officers to perform community policing.
Subsequently, the COPS Office went on the award about 7,000 grants
during the remainder of FY 1995. The requirements of the Phase I
grants were very similar to the requirements of BJA’s PHS grants. The
BJA’s awarding of the Phase I COPS grants was the first in a continuing
line of services performed by OJP for the COPS Office.

COPS Program Services Performed by OJP. Beginning in FY 1995,
and continuing every year since, COPS has entered into reimbursable
agreements with OJP to perform services related to the COPS
program. As shown in the following chart, since FY 1999, the COPS
Office has transferred a total of about $16 million in M&A costs to OJP
through reimbursable agreements for OJP to perform services related
to programs administered by the COPS Office.

               Amounts for Reimbursable Agreements
                     Between COPS and OJP
                    From FY 1999 to FY 2002
                              $5
                   Millions




                              $4

                              $3

                              $2

                              $1

                              $0
                                   FY   FY    FY   FY
                                   99   00    01   02

          Source: OJP Audit Liaison




                                        -8-
      According to OJP, the services it currently performs for the COPS
Office are as follows:

  •   Processes and verifies payments to COPS grantees and disburses
      funds in accordance with legal requirements
  •   Resolves daily payment rejects and cancellations, as appropriate
  •   Processes payment adjustments for COPS grant activity such as
      returned checks, changes in banking information, and vendor
      identification numbers
  •   Reconciles cash to Treasury (SF-224) and to the Integrated
      Financial Management Information System (IFMIS) for COPS
      financial activity on a monthly basis
  •   Creates and generates financial reports and performs financial
      analyses, as requested
  •   Submits quarterly Federal Assistance Award Data System reports
      to the Census Bureau
  •   Maintains official financial records in the OJP Office of the
      Comptroller for all COPS grantees
  •   Provides data entry and/or interface transfers for awards,
      modifications, supplements, extensions, and signed COPS
      awards into IFMIS, as appropriate.
  •   Provides COPS grantees with Phone Activated Paperless Request
      System (PAPRS - a system for requesting grant reimbursements
      via telephone) payment packages, which includes payment
      access information
  •   Maintains the PAPRS system and the Letter of Credit Electronic
      Certification System (LOCES)
  •   Maintains an auditable accounting system with financial and
      management controls to accurately and timely record accounting
      transactions for obligations, deobligations, expenditures,
      drawdowns, and receivables (returned checks from grantees)
  •   Conducts financial grant closeouts of COPS grants
  •   Maintains an accounting system to produce standard and
      customized reports for producing and/or reconciling to the
      Statement of Transactions (SF-224) and for complying with
      other Federal reporting requirements
  •   Maintains an accounting system to allow current and prior year
      adjustments accounting entries
  •   Maintains an interface between IFMIS, Justice Management
      Division (JMD), and other legacy systems, to upload data as
      appropriate
  •   Maintains the IFMIS menu option for COPS-specific reports
  •   Establishes and maintains user identification numbers in IFMIS,
      reset passwords, and assisted IFMIS users

                              -9-
  •   Provides JMD with grant data for grant accruals
  •   Prepares COPS’s financial reports for inclusion in JMD’s financial
      statements that include COPS financial activity
  •   Conducts financial monitoring of COPS grants and provides
      results to COPS management
  •   Provides audit resolution/closure of COPS-related Single Audit
      Act audit reports
  •   Processes grant adjustment notices, as appropriate
  •   Manages COPS’s vendor information in IFMIS
  •   Resolves COPS’s vendor issues, as appropriate
  •   Analyzes and responds to audit confirmations from independent
      Certified Public Accountant firms for COPS grant activity
  •   Develops, maintains, and interprets written financial grants
      management policy and procedures and included same in OJP’s
      Financial Guide

       We noted that the COPS Office has taken steps to reduce its use
of OJP services by assuming responsibility for some functions
previously performed by OJP such as: 1) reviewing and approving
final grant award budgets, 2) providing financial management training
to grantees, 3) coordinating with the OIG to resolve and close COPS
grantee audit reports, and 4) assisting in negotiating repayment
agreements with grantees and establishing payment schedules.
Nonetheless, while the COPS Office has reduced the redundancies
between the two agencies by using OJP to perform these services for
the COPS program, the use of reimbursable agreements indicates that
OJP is better suited to provide these functions for the COPS program.

COPS Funds Passed Through to OJP. In addition to the COPS
Office relying on OJP to perform services related to the COPS program,
the COPS Office has continually passed a portion of its funds to OJP to
administer since FY 1999. The amount of funds passed through to OJP
has steadily increased and reached almost 40 percent of COPS’s total
budget during FY 2002. As shown in the following chart, the trend has
clearly been a steady decrease in the percentage of the COPS Office’s
budget managed and administered by the COPS Office.




                              - 10 -
     C O P S F u n d s P a s se d T h ro u g h to O J P    P e rce n t o f C O P S B u d ge t P asse d
            F ro m F Y 1 9 9 9 to F Y 2 0 0 2             T h r o u g h to O J P F r o m F Y 1 9 9 9 to
                                                                            FY 20 02
       Millions   $450                                    40%
                  $400
                  $350                                    30%
                  $300
                  $250
                                                          20%
                  $200
                  $150
                  $100                                    10%
                   $50
                    $0                                     0%
                         FY   FY      FY      FY                     FY       FY      FY      FY
                         99   00      01      02                     99       00      01      02

       Source: OIG Analyses of Budget Data

              COPS funds are passed through to OJP in various ways. Most of
       the funds passed through to OJP are mandated by Congress in the
       COPS Office’s annual appropriations language, a practice that began in
       FY 1999.11 In FY 2002, the mandatory pass-through funds totaled
       $361.9 million. An example of a mandatory pass-through for FY 2002
       was for the Police Corps program. In FY 2002, COPS’s budget
       contained $14,435,000 for the Police Corps program. The Police Corps
       was created to help address violent crime by increasing the number of
       officers with advanced education and training who are assigned to
       community patrol. The central component of the Police Corps program
       is the provision of financial assistance and basic police training to
       college students who agree to serve as police officers for four years,
       along with financial assistance to participating police departments and
       sheriff offices. A second component offers no-obligation college
       scholarships to children of law enforcement officers killed in the line of
       duty. The authorizing language in the COPS Office’s approved budget
       provided that the Police Corps funds would be transferred to OJP to
       administer. As such, the COPS Office passed through to OJP all
       $14,435,000 approved for the Police Corps program in FY 2002.

             Another way the COPS Office passes through funds is through
       discretionary pass-throughs. Discretionary pass-throughs occur when
       the COPS Office and OJP agree that certain funds in the COPS Office’s
       budget would be either best managed by OJP or best managed jointly
       and the COPS Office passes these funds to OJP at its discretion. For


       11
          According to the COPS Office, the President’s FY 2004 budget submission requests
that the mandatory program pass-through funds be funded directly in OJP’s budget rather
than passed through from the COPS Office budget.

                                                 - 11 -
     FY 2002, the discretionary pass-through funds totaled only about
     $387,000, which was substantially less than the $3.4 million in
     discretionary funds passed through to OJP in FY 2001. An example of
     a discretionary pass-through for FY 2001 was the jointly managed
     Comprehensive Indian Resources for Community and Law Enforcement
     (CIRCLE) program. The CIRCLE program is a three-year State
     initiative designed to empower American Indian communities to more
     effectively fight crime, violence, and substance abuse. In FY 2001, the
     COPS Office passed through $2 million to OJP to administer the
     CIRCLE program.

            A third way that the COPS Office passes through funds to OJP is
     through earmarks. Earmarks are legislative directives in the
     appropriations laws that dictate how to spend certain portions of funds
     appropriated within larger funding programs. According to COPS
     officials, these funds are usually to continue projects previously
     administered by OJP or for programs that specifically fit within an
     existing OJP program. The legislative directives for the earmarks
     sometimes mandate that the funds be administered by OJP and at
     other times the COPS Offices passes through the earmark funds to OJP
     at its discretion. For FY 2002, the earmark funds passed through
     totaled $51.4 million. An example of an earmark for FY 2002 was to
     continue the Safe Schools Initiative (SSI) previously administered by
     OJP. The SSI supports a comprehensive, integrated community-wide
     approach to promote healthy childhood development and address the
     problems of school violence and drug abuse. In FY 2002, at its
     discretion, COPS passed through $9,531,000 of earmarked funds to
     OJP for the SSI. In most cases, once COPS passed through the funds,
     OJP assumed full responsibility for the management and
     administration of the funds.

Comparison of the COPS Office’s and OJP’s Costs to Manage and
Administer Federal Financial Assistance Funds

       The COPS Office and OJP both spend a large amount of money each
year to manage and administer the Federal financial assistance funds
awarded to State and local governments. From FY 1999 through FY 2002,
Congress appropriated the COPS Office about $126 million in management
and administration (M&A) costs to administer about $4.5 billion in program
funds. During this same period, Congress appropriated OJP about $155
million in M&A costs to administer about $14 billion in program funds. We
compared the M&A costs per program dollar spent and the M&A costs per
grant administered for both the COPS Office and OJP for FY 1999 through


                                   - 12 -
FY 2002. As illustrated in the following charts, the COPS Office annually
spends more M&A costs per program dollar than OJP. In addition, while the
COPS Office has spent less M&A costs per grant administered than OJP,
COPS’s M&A costs per grant administered increased each year from
FY 1999 to FY 2002, while OJP’s M&A costs per grant administered
decreased each year from FY 1999 to FY 2002. Moreover, if the trend
continues, the COPS Office will likely spend more M&A costs per grant
administered than OJP in FY 2004.

                 Comparison of Actual M&A Costs for COPS and OJP
A c tu a l M & A C o s ts P e r P ro g ra m              A ctu a l M & A C o sts P e r G ra n t
        D o lla r F r o m F Y 1 9 9 9                    A d m in is te re d F ro m F Y 1 9 9 9
               to F Y 2 0 0 2                                         to F Y 2 0 0 2
6%                                                 $ 7 ,0 0 0
5%                                                 $ 6 ,0 0 0
4%                                                 $ 5 ,0 0 0
                                                   $ 4 ,0 0 0
3%
                                                   $ 3 ,0 0 0
2%
                                                   $ 2 ,0 0 0
1%                                                 $ 1 ,0 0 0
0%                                                        $0
            FY    FY      FY      FY                             FY       FY      FY       FY
            99    00      01      02                             99       00      01       02

                 COPS     O JP                                         COPS       O JP

Source: OIG Analyses of Actual Costs and Grant Award Data

      The COPS Office’s M&A costs per grant administered are increasing
because the COPS Office has not significantly reduced its personnel costs
even though the grants administered by the COPS Office has significantly
declined in recent years. OJP’s M&A costs per grant administered are
decreasing because OJP has kept its personnel costs relatively constant in
recent years while it administered a significantly higher number of grants.12

Duplication Between COPS Grants and OJP Grants

      In addition to reviewing the COPS Office’s reliance on OJP and
comparing the COPS Office’s and OJP’s M&A costs, we reviewed the types of
grants awarded by the two agencies to determine if any duplication existed.
       12
          The analyses comparing the COPS Office’s M&A costs to OJP's M&A costs support
that the COPS Offices M&A costs per program dollar have been higher than OJP’s and that
the COPS Office’s M&A costs per grant administered are steadily increasing while OJP’s M&A
costs are decreasing. The analyses were macro analyses that do not take into account
other variables that could affect each offices cost to administer grants such as hiring freezes
and unexpected program changes.

                                            - 13 -
We determined that the major COPS grants for hiring officers and civilians
and for purchasing equipment were sometimes duplicative of grants awarded
by OJP under the Local Law Enforcement Block Grant (LLEBG) program.
While the LLEBG program is much broader in terms of what the program will
fund, some of the allowable LLEBG expenditures are for the same purposes
as the COPS Universal Hiring Program (UHP) grants, COPS Making Officer
Redeployment Effective (MORE) grants, COPS in Schools (CIS) grants, COPS
Safe Schools Initiative (SSI) grants, and COPS Secure Our Schools (SOS)
grants. The LLEBG program provides funds for the following seven
purposes:

     •   Supporting law enforcement efforts such as: 1) hiring, training,
         and employing additional law enforcement officers and necessary
         support personnel on a continuing basis; 2) paying overtime to
         currently employed law enforcement officers and necessary support
         personnel to increase the number of hours worked by such
         personnel; and 3) procuring equipment, technology, and other
         material directly related to basic law enforcement functions.

     •   Enhancing security measures in and around schools and other
         facilities or locations that the unit of local government considers
         special risks for incidents of crime.

     •   Establishing or supporting drug courts.

     •   Enhancing the adjudication of cases involving violent offenders,
         including cases involving violent juvenile offenders.

     •   Establishing a multi-jurisdictional task force, particularly in rural
         areas, composed of law enforcement officials representing units of
         local government. This task force must work with State law
         enforcement officials to prevent and control crime.

     •   Establishing crime prevention programs involving cooperation
         between community residents and law enforcement personnel to
         control, detect, or investigate crime or to prosecute criminals.

     •   Defraying the cost of indemnification insurance for law enforcement
         officers.

      The COPS UHP and COPS CIS grants pay for officer salaries and fringe
benefits to support community policing, and grants awarded under the first
purpose of the LLEBG program also pay for officer salaries and fringe
benefits to support community policing. For example, the City of Daytona

                                     - 14 -
Beach, Florida received a COPS UHP grant for $475,177 to hire seven
officers to perform community policing and also received an OJP LLEBG grant
for $445,068 to hire five officers to perform community policing. Further,
we found that similar to grants awarded under the LLEBG program, the
COPS MORE grants pay for officer overtime (1995 grants only), hiring
civilians to enable officers to be redeployed to the streets, and purchasing
equipment that will save officers time and allow them to spend more time on
the streets. The LLEBG grants awarded under the first purpose of the LLEBG
program also pay for officer overtime, hiring civilians, and purchasing
equipment. For example, the Orange County Florida Sheriff’s Office received
four COPS MORE grants totaling more than $2.9 million to purchase
computers and related accessories/software for officers and also received an
OJP LLEBG grant that included $26,142 to purchase computers and related
accessories/software for officers.

      Duplication also exists between the COPS Office’s school safety grants
and OJP’s LLEBG grants awarded under the second purpose of the LLEBG
program. The COPS SSI and SOS grants, as well as OJP LLEBG grants, pay
for equipment to help make schools safer. For example, the City of Orlando,
Florida received a COPS SOS grant for $14,063 and an OJP LLEBG grant for
$40,000 to purchase equipment to make schools safer.

      The duplicative grant programs between the COPS Office and OJP are
a result of various statutes being passed that created multiple grant
programs to fund similar items. We asked OJP and COPS officials how they
coordinate their programs that have similar purposes. Both said that there
are no formal coordination procedures between the two offices to ensure
dual awards are not made to the same grantee. While the duplicative
programs cannot be eliminated without getting the statutes revised, the
COPS Office and OJP should establish procedures to coordinate with each
other to ensure that grantees do not receive funds for the same purpose
from both agencies.

      We also noted that duplication exists between the COPS Office and OJP
because both do similar functions related to the grants they award.
Specifically, both the COPS Office and OJP spend considerable resources to
develop grant programs, announce grant programs to the potential
grantees, establish and disseminate grant criteria and application kits,
review grant applications, award the grants, monitor implementation of the
grants, manage follow-up on OIG audits of grantees, and close out grants.




                                   - 15 -
Capability for Potential Grantees to Apply for Grants Online

       The COPS Office had not developed an adequate capability for
potential grantees to submit grant applications online. Potential grantees
are able to obtain applications and information about the grants online. In
addition, COPS has made several post-award functions available online such
as allowing grantees to provide information on grant progress using the
“COPS Count” and performing account maintenance functions. However,
the capability does not exist for COPS to receive grant applications online
and download the application information directly into the COPS Office’s
automated grant management system. All components in the COPS Office
use the COPS Management System (CMS) to manage grants. The CMS
system is an internally developed system that can be used to track all
phases of the grant process from application receipt through grant closeout.
However, potential grantees cannot submit applications online directly into
CMS. Instead, potential grantees must mail, fax, or e-mail the applications
to the COPS Office and the COPS Office must then manually enter the
application data into the CMS. We believe the COPS Office should streamline
the grant application process by developing an ability for potential applicants
to apply for grants online with the online application data going directly into
a COPS database. Such action should make the application data available to
COPS grant managers more quickly and speed up the grant approval and
award process.

      COPS Office officials told us that an online application capability would
be developed as part of the e-government and Public Law 106-107 initiatives
managed by the OMB. The COPS Office created and filled an e-government
program manager position and established a business practices group that
has: 1) gathered information about the COPS Office’s grant management
processes, and 2) analyzed the application processes for the different COPS
grants. The group also plans to develop data elements that are needed for
an electronic application system and provide those elements to the OMB for
approval.

Conclusion

       From the inception of the COPS program in 1994, the COPS Office has
relied on OJP to perform services related to the COPS program. The COPS
Office’s reliance on OJP has grown so much that nearly 40 percent of the
COPS Office’s budget was passed through to OJP during FY 2002. Further, in
recent years the COPS Office’s M&A costs per program dollar have been
higher than OJP’s. Also, the COPS Office’s M&A costs per grant administered
have been increasing while OJP’s M&A costs per grant administered have
been decreasing. In addition, some grants awarded by COPS have

                                    - 16 -
duplicated the purpose of grants awarded by OJP and the offices perform
overlapping functions. The COPS Office needs to better coordinate with OJP
regarding the development of grant programs, and develop a capability for
potential grantees to apply for grants online.

Recommendations:

We recommend the Director of COPS and the Assistant Attorney General for
OJP:

1. Develop and implement a method of coordination to identify proposed
   programs and grants that have similar purposes and eliminate any
   duplication of effort to ensure that awards are not made to the same
   grantee for similar purposes.

We recommend the Director of COPS:

2. Continue to develop an online application system for COPS grants that
   will allow potential grantees to complete grant applications online and
   that supports the downloading of online application data directly to the
   COPS Management System for processing.




                                    - 17 -
FINDING 2: STREAMLINING THE OFFICE OF JUSTICE PROGRAMS

            Since the Office of Justice Programs (OJP) was established in
     1984, it has experienced dramatic growth that included many new
     financial assistance programs created by Congress. Many of these
     programs are overlapping and have caused duplication and inefficiency
     within OJP that has long been recognized by Congress and OJP. Since
     1997, OJP has developed multiple reorganization plans that have not
     been fully implemented. The current OJP management, installed in
     2001, has developed a reorganization plan that contains steps to
     improve OJP’s efficiency and effectiveness in awarding and
     administering Federal financial assistance programs. However, even
     after implementation of the plan, we believe that some duplication
     between grants awarded by different OJP offices will remain and some
     inefficiencies will not be fully addressed. For example, we found that
     OJP does not have a fully effective automated system to manage its
     grants, to include the ability for all potential grantees to apply for
     grants online. More fully addressing these issues in its current
     reorganization and streamlining efforts should further improve the
     efficiency and effectiveness of OJP’s financial assistance operations.

Growth and Reorganization Plans of OJP

      OJP’s budget has grown dramatically since its establishment in 1984.
As shown in the following chart, OJP’s budget grew from $197.4 million
during FY 1984 to more than $4.2 billion during FY 2003.

                               OJP’s Budget by FY
                                    (Billions)

        $5
        $4
        $3
        $2
        $1
        $0
       1 4
       1 5
       1 6
       1 7
       1 8
       1 9
       1 0
       1 1
       1 2
       1 3
       1 4
       1 5
       1 6
       1 7
       1 8
       2 9
       2 0
       2 1
       2 2
          3
         8
         8
         8
         8
         8
         8
         9
         9
         9
         9
         9
         9
         9
         9
         9
         9
         0
         0
         0
         0
        9
        9
        9
        9
        9
        9
        9
        9
        9
        9
        9
        9
        9
        9
        9
        9
        0
        0
        0
        0
       1




       Source: OJP’s Enacted Budgets

      The extensive growth of OJP may have contributed to the
duplication and inefficiency, which OJP has long recognized. To
                                       - 18 -
eliminate duplication and inefficiency within OJP, numerous plans have
been developed to reorganize OJP.

     •   In FY 1997, in the conference report accompanying the
         Department’s FY 1998 appropriations bill, the conferees observed
         that funding for OJP had grown tremendously, and asked the
         Assistant Attorney General (AAG) for OJP to submit a report that
         “outlines the steps OJP has taken and which recommends additional
         actions that will ensure coordination and reduce the possibility of
         duplication and overlap among the various OJP divisions.” In
         response, in December 1997, the AAG submitted a report to
         Congress that presented options for improving coordination in OJP
         grant administration.

     •   In October 1998, in the conference report that accompanied the
         FY 1999 Department appropriations bill, OJP’s AAG was asked to
         develop a plan for a new organization structure for OJP. Congress
         specifically directed the AAG to explore the consolidation and
         streamlining of agency activities in order to enhance OJP’s
         stewardship of criminal and juvenile justice grant-in-aid initiatives.
         In response, in March 1999, the AAG submitted a proposed
         reorganization plan to Congress that had been cleared by OMB.

     •   In November 1999, Congress again addressed OJP’s duplication and
         inefficiency when, in the conference report accompanying the FY
         2000 Justice Department appropriations bill, it asked OJP to prepare
         and submit to Congress a “formal reorganization proposal” to
         implement selected components of OJP’s March 1999 proposed
         reorganization plan. In response, OJP developed a proposal for
         implementing a new organization structure that was approved by
         the Attorney General in February 2000 and sent to Congress.

     •   In April 2000, Congress concurred with OJP’s new organization
         proposal (as approved by the Attorney General in February 2000).
         In June 2000, the House Committee on Appropriations requested
         that OJP submit a report on its implementation of the
         reorganization plan approved by Congress. The report was due by
         December 31, 2000, but OJP did not submit the report as
         requested. Instead, OJP requested an extension until September
         2001 to submit an interim report and until December 2001 to
         submit a final report on the implementation of the reorganization
         plan approved by Congress. OJP delayed its interim report due to
         the terrorist attacks in September 2001 and submitted its report to
         the House Committee on Appropriations in December 2001.

                                     - 19 -
         However, the report was not on OJP’s implementation of the
         reorganization plan approved by Congress in April 2000. Instead,
         the report was a new, and the most recent, plan for reorganizing
         OJP.

      In its most recent plan for reorganization, the current OJP
administration presented eight objectives for: 1) improving responsiveness,
assistance, and accountability to all customers; 2) eliminating duplication
and overlap; 3) ensuring measurable grant and program outcomes; and
4) enhancing communication, cooperation, coordination, and efficiency.
Specifically, the plan stated:

     •   OJP should have a strategic plan that reflects statutory
         requirements and the mission and goals of the President and the
         Attorney General.

     •   The statutes governing OJP bureaus and program offices should be
         amended to provide that all authority resides in the Attorney
         General.

     •   Management policies and procedures should be standardized
         throughout OJP.

     •   An OJP-wide grants management system should be instituted.

     •   OJP should be more responsive to the needs and questions of
         grantees.

     •   Centralized communication should be established at OJP.

     •   Coordination of legislative, statutory, and regulatory activities and
         reviews should be improved.

     •   OJP should consolidate and coordinate currently overlapping
         functions.

      Both the House and Senate approved OJP’s plan for reorganization in
June 2002, except for combining the Office of Civil Rights with the Office of
General Counsel. To accomplish the eight objectives of its current plan, OJP
plans to implement its reorganization in three phases.

      Phase I and Phase II of the reorganization plan deal primarily with
reducing OJP’s organization components from 20 to 15 and leaves the five


                                    - 20 -
OJP bureaus intact.13 During our audit, OJP created a Chief Information
Office and hired a Chief Information Officer, and established the reporting
and chain of command for the Drug Courts Program Office within the Bureau
of Justice Assistance. An OJP official stated that restructuring would take
place during FY 2003 among the components. After the structural changes
are in place, OJP says it will begin Phase III of its plan to obtain revisions to
existing statutes that provide final grant-making authority to OJP’s bureaus
instead of to the Attorney General or Assistant Attorney General for OJP.

       We believe OJP’s planned organization structure, some of which has
already been implemented, should improve the efficiency and effectiveness
of OJP’s Federal financial assistance programs. Specifically, OJP has begun
efforts to improve OJP’s automation of the grant management process by
hiring a consultant to evaluate alternatives for implementing an effective
system. In addition, the reduction and realignment of program and support
offices within OJP should help reduce duplication and inefficiency cited by
OJP and should improve communication among OJP components. For
example, moving the Drug Courts Program Office under the Bureau of
Justice Assistance should enable better communication between these offices
and eliminate duplicate grants awarded by the two offices since, as separate
offices, both award grants to State and local governments to establish adult
and juvenile drug courts.

Issues Not Fully Addressed by the Reorganization Plan

      Implementation of OJP’s reorganization plan will not eliminate all
duplication among OJP programs. For example, OJP’s Office for Domestic
Preparedness awards grants for equipment to help State and local
government agencies respond to terrorist acts such as the use of weapons of
mass destruction. OJP’s Bureau of Justice Assistance awards LLEBG grants
that also pay for equipment for State and local government agencies to
respond to terrorist acts. OJP’s reorganization did not effectively address
this duplication because the two offices remained separate in the new
organization.14 In addition, the duplication and overlap that exists among
OJP’s bureaus will not be eliminated unless OJP is successful at
implementing Phase III of its reorganization to obtain revision of the existing


       13
          See Appendix 4 for organization charts showing OJP’s organization structure
before and after the reorganization.
       14
         This duplication within OJP was eliminated on March 1, 2003, when OJP’s Office of
Domestic Preparedness transferred to the new Department of Homeland Security.
However, duplication may exist between OJP’s Bureau of Justice Assistance and the
Department of Homeland Security’s Office of Domestic Preparedness.

                                          - 21 -
statutes governing the authority of its bureaus. OJP has repeatedly
identified the following overlap and duplication among OJP’s bureaus:

      •   At least four bureaus address domestic violence.
      •   All five bureaus address child abuse.
      •   At least three bureaus address juvenile drug use.
      •   At least four bureaus address youth violence.

       We identified another area that we believe needs significant
attention in order for OJP’s streamlining efforts to be fully successful.
Specifically, OJP needs to significantly improve its automated
management of Federal financial assistance programs. We determined
that OJP’s automation of Federal financial assistance programs needs
strengthening because OJP: 1) still uses a manual system to record
and review many steps in the grant process; 2) has an automated
Grant Management System (GMS) that does not track grants from
solicitation to close-out; 3) has multiple automated systems in use by
OJP offices, some of which contain duplicate data; and 4) has not
developed an online application capability for many of its grant
programs.

      Manual System to Process Grants

             OJP uses a manual system called the “Redbook” to process grant
      awards from application through grant award. The “Redbook” is a
      binder for each grant awarded to a particular grantee that holds all
      documentation, such as the grant application, documentation on the
      application review, the award package, and supporting information, up
      to the grant award. The “Redbook” is assembled and routed through
      various OJP components for the purpose of review, analysis, and
      certification. Specifically, the “Redbook” goes through the following
      process in sequential order:

            •   The “Redbook” is originated by the OJP office that will award
                the grant.
            •   The originating office passes the “Redbook” to the support
                offices for required analyses such as financial reviews, legal
                analysis, etc.
            •   In the final phase before award approval, the Office of the
                Comptroller reviews the “Redbook” and certifies that the
                grant is ready for approval.
            •   The Assistant Attorney General for OJP, or the designated
                person, approves the grant for award.


                                     - 22 -
        This manual process is cumbersome and slow, since the
“Redbook” must be routed through each office one at a time.
Automation of this process could allow the different offices to do some
of their tasks simultaneously and help speed up the award process.
OJP has made efforts to automate some of the “Redbook” process in
that it now has some “Redbooks” that use the automated Grant
Management System (GMS). However, even though the “Redbook”
process that uses GMS has the forms available in GMS, the forms are
still printed out and maintained manually in the “Redbook.” During the
audit, OJP’s Chief Information Officer reviewed the “Redbook” process
and began implementing plans to fully automate the process.
According to OJP, the new system will automate grants management
from the solicitation process to grant closeout and full implementation
is expected by the end of calendar year 2003. We believe that OJP
should monitor the progress of actions to fully automate the
application and award process and eliminate the cumbersome and
inefficient manual “Redbook” process, and ensure the process is fully
automated by the end of calendar year 2003.

Grant Management System

      The GMS system was initiated in December 1998 as a pilot
program to streamline the solicitation, application, and award of grants
by using an automated system. However, the GMS is currently not in
widespread use among OJP components and based on our interviews
with GMS users, many users had complaints about the system. One
drawback of GMS is that it only goes from solicitation through grant
award. It does not maintain information on grant monitoring and
closeout after the grant is awarded. In addition, the users complained
that:

      •   The system does not block ineligible applicants.
      •   Applicants reported glitches in the system while trying to
          apply for grants.
      •   Applications are sometimes lost after submission.
      •   Information is sometimes lost by the system during data
          entry.
      •   The system is not web-based, which would allow grantees to
          learn about all OJP grants that provide similar services.

      As part of its reorganization, OJP hired a Chief Information
Officer, who began addressing the GMS related issues. In addition,
OJP hired a consulting firm to evaluate different alternatives for


                              - 23 -
implementing an effective grants management system at OJP. The
consulting firm evaluated the following four alternatives:

     •   Complete custom development of a new system.
     •   Purchase of a Commercial Off the Shelf (COTS) system.
     •   Integrating the current GMS system with COTS modules.
     •   Acquiring a Government Off the Shelf system.

       In its September 2002 report, the consultant recommended that
the best solution for OJP would be to integrate the current GMS
system with modules that would expand the system to manage grants
from beginning to end. In our judgment, the consultant’s report
presented a convincing case for expanding the GMS system. As
previously noted, during the audit the Chief Information Officer began
implementing plans for a new grant management system that will
automate the process from solicitation to grant closeout. We believe
that OJP should monitor the progress towards implementation of the
recommendations in the consultant’s report to enable OJP to more
efficiently manage the administration of grants from beginning to end,
and ensure the recommendations are implemented by the end of
calendar year 2003.

Multiple Automated Systems

       We found that OJP has more than 70 automated application
systems to help manage its operations. A brief description of these
systems is contained in Appendix 5. While many of these systems are
no longer used to manage new grants, they contain data on older and
sometimes still active grants and are still used by OJP to manage
these grants. Some of these systems were developed by the
individual components within OJP and duplicate information in other
OJP systems. In addition, although the AAG for OJP recently
determined that all OJP offices should use GMS as the standard system
for tracking OJP grants, we found that the bureaus are not using GMS
for most programs. The bureaus continue to use their own systems
for tracking grants. OJP recognizes that its automated systems need
to be streamlined, which is one reason that it decided to hire a Chief
Information Officer as part of its reorganization. OJP has also:
1) hired a consulting firm to develop and present alternatives for
automated grant management, 2) began the development of an
Information Technology Strategic Plan to address OJP’s automation of
the grant management process, and 3) reported initiating a process to
eliminate automated systems that overlap or are duplicative of
capabilities in the new grants management system. OJP expects to

                             - 24 -
     eliminate all overlapping or duplicative systems by the end of calendar
     year 2003 when the new grants management system is fully
     implemented. We believe that OJP should monitor the progress of
     actions to identify and eliminate automated systems which perform
     duplicative functions or contain duplicative data, and ensure the
     duplications are eliminated by the end of calendar year 2003.

     Online Application Capability

            OJP had not fully developed an ability for potential grantees to
     submit grant applications online. OJP’s program offices all use the
     GMS system, which does allow for potential grantees to submit
     applications online directly into the system. However, OJP’s bureaus
     were not required to use GMS until early in 2003, after our audit
     fieldwork. We found that the bureaus use other automated systems
     that have online application capability, but these systems are only
     used for 3 of the 47 grant programs administered by the bureaus. As
     a result, online application was not available for most grant programs
     administered by OJP’s bureaus. Based on our interviews with officials
     at the five bureaus, the bureaus were in favor of fully automating the
     grant award process to improve the efficiency of awarding grants. On
     January 17, 2003, the Assistant Attorney General (AAG) for OJP
     mandated that all OJP bureaus and program offices use GMS to post
     all grant solicitations and to process applications for grant funding
     electronically. We believe that OJP should monitor the bureaus to
     ensure that they use GMS.

Conclusion

       Since OJP was established in 1984 with an annual operating budget of
$197.4 million, OJP has experienced dramatic growth to reach an annual
budget in FY 2002 of more than $4 billion, with many new financial
assistance programs. The current OJP management has begun concerted
efforts to implement the reorganization of OJP. OJP’s current reorganization
plan contains positive steps to eliminate some duplication and overlap in the
award and administration of grants, but it will not eliminate all duplication
and overlap among OJP offices. In addition, although OJP’s reorganization
plan addresses weaknesses in its automated management of Federal
financial assistance programs, we believe additional efforts should be
focused on improving the automation of grant management functions within
OJP.




                                    - 25 -
Recommendations

We recommend the Assistant Attorney General for OJP:

3. Continue efforts to implement OJP’s current reorganization plan.

4. Identify all the overlapping programs that will still exist after the
   reorganization is implemented and develop plans to either reorganize the
   overlapping programs or strengthen the communication between the
   overlapping offices to eliminate the duplication.

5. Monitor the progress of efforts to fully automate the “Redbook” process
   and ensure that the process is fully automated by the end of calendar
   year 2003 as planned.

6. Monitor the progress of actions to implement the consultant’s
   recommendation to integrate the current GMS system with modules that
   would expand the system to manage grants from beginning to end, and
   ensure the expanded system is implemented by the end of calendar year
   2003 as planned.

7. Monitor the progress of actions to identify and eliminate automated
   systems which perform duplicative functions or contain duplicative data,
   and ensure the duplicative systems are eliminated by the end of FY 2003
   as planned.

8. Monitor the bureaus to ensure they use the GMS system to enable
   grantees to submit grant applications online for all bureau grant
   programs.




                                   - 26 -
              OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

      The objective of the audit was to identify activities and functions that
can be streamlined to increase operational efficiency within the Office of
Justice Programs (OJP) and the Office of Community Oriented Policing
Services (COPS).

Scope and Methodology

      The audit was performed in accordance with Government Auditing
Standards issued by the Comptroller General of the United States, and
included tests and procedures necessary to accomplish the objective.

      Generally, the audit focused on the administrative activities and grant
functions within OJP and the COPS Office, as well as between OJP and the
COPS Office. We performed audit fieldwork at OJP and COPS offices in
Washington, D.C.

       To accomplish the audit objective, we conducted 76 interviews with 80
officials from OJP, the COPS Office, the Department of Justice, and the Office
of Management and Budget (OMB), among others. OJP officials interviewed
included the Principal Deputy Assistant Attorney General for OJP and other
officials in each of OJP’s five bureaus, six program offices, and eight support
offices. The COPS Office officials interviewed included the Director of COPS
and other officials in the Director’s office and each of the COPS Office’s nine
division offices. We also reviewed more than 360 documents, including
OJP’s and the COPS Office’s management policies and procedures, grant
management guidance, budget documentation, organization structures,
Congressional testimony, and prior Office of the Inspector General reports.
The interviews and analyses of documents included:

      •   Notifying OJP and COPS Office officials of the audit’s purpose,
          objective, and scope;

      •   Reviewing applicable laws, program policies, procedures,
          organization charts, and mission statements;

      •   Reviewing prior audit reports and studies by the Department on
          related issues;

      •   Reviewing budgetary documents to determine the amount of funds
          budgeted and expended for each fiscal year;

                                     - 27 -
•   Interviewing OJP’s and the COPS Office’s component heads and
    officials to obtain an understanding of the operation of each office
    and to discuss special areas such as the e-government initiative,
    automated systems, and reorganization plans;

•   Reviewing documents provided by the COPS Office and OJP to
    identify the Federal financial assistance programs administered;

•   Analyzing documents provided by the COPS Office and OJP to
    determine for each agency the ratio of management and
    administration funds budgeted and expended to the: 1) program
    dollars budgeted and expended, and 2) grants administered; and

•   Evaluating the award process for each financial assistance program
    (grants, cooperative agreements, etc.).

The interviews and analyses of documents were completed to:

•   Obtain an understanding of OJP’s and the COPS Office’s
    organization structures,

•   Identify the different types of Federal financial assistance awarded
    by OJP and the COPS Office,

•   Assess whether Federal financial assistance functions are duplicated
    within and/or between OJP’s and the COPS Office’s programs,

•   Assess whether OJP’s planned reorganization will minimize or
    eliminate duplication of administrative duties and Federal financial
    assistance functions, and

•   Reconcile differences between what the COPS Office and OJP
    showed as funds passed through from COPS to OJP.




                               - 28 -
           STATEMENT ON COMPLIANCE WITH LAWS
                    AND REGULATIONS


      We audited the administrative activities and financial assistance
functions of the Office of Justice Programs (OJP) and the Office of
Community Oriented Policing Services (COPS). The audit period covered
primarily from the inception of OJP in 1984 and COPS in 1994 through the
end of FY 2002, and included a review of selected activities and transactions.
The audit was conducted in accordance with generally accepted Government
Auditing Standards.

       In connection with the audit and as required by the standards, we
reviewed procedures, activities, and records to obtain reasonable assurance
about OJP’s and the COPS Office’s compliance with laws and regulations
that, if not complied with, we believe could have a material effect on
program operations. Compliance with laws and regulations is the
responsibility of OJP’s and COPS Office’s management.

      Our audit included examining, on a test basis, evidence about laws and
regulations that related to OJP’s and COPS Office’s efforts to streamline
Federal financial assistance functions. Specifically, we conducted tests
related to OJP’s and the COPS Offices implementation of Public Law 106-
107: Federal Financial Assistance Management Act of 1999.

      We did not identify any instances where OJP or the COPS Office was
not in compliance with the law tested. With respect to those transactions
not tested, nothing came to our attention that caused us to believe that OJP
and the COPS Office were not in compliance with the law tested. However,
we did note areas for additional streamlining within OJP and the COPS Office
as discussed in the Findings and Recommendations section of this report.




                                    - 29 -
                                                              APPENDIX 1

   DESCRIPTION OF THE OFFICE OF JUSTICE PROGRAMS’
   BUREAUS, PROGRAM OFFICES, AND SUPPORT OFFICES

BUREAUS

Bureau of Justice Assistance (BJA). This bureau was established by the
Omnibus Crime Control & Safe Streets Act of 1968 § 401. BJA provides
funding, training, and technical assistance to State and local governments to
combat violent, and drug-related crime and help improve the criminal justice
system. This bureau now includes the former Drug Courts Program Office
and the former Corrections Program Office.

Bureau of Justice Statistics (BJS). This bureau was established by the
Omnibus Crime Control & Safe Streets Act of 1968 § 302. BJS collects and
analyzes statistical data on crime and the operations of justice systems at all
levels of government. It also provides financial and technical support to
State governments in developing State capabilities in criminal justice
statistics, improving criminal history records, and implementing crime
identification technology systems.

National Institute of Justice (NIJ). This bureau was established by the
Omnibus Crime Control & Safe Streets Act of 1968 § 202. NIJ supports
research and development programs, conducts demonstrations of innovative
approaches to improve criminal justice, develops and tests new criminal
justice technologies, evaluates the effectiveness of justice programs, and
disseminates research findings to practitioners and policy makers. NIJ also
provides primary support for the National Criminal Justice Reference Service,
a clearinghouse of criminal justice-related publications, articles, videotapes,
and online information.

Office of Juvenile Justice and Delinquency Prevention (OJJDP). This
bureau was established through the Juvenile Justice & Delinquency
Prevention Act of 1974 § 201. OJJDP provides award funding to improve
juvenile justice systems and sponsors innovative research, demonstration,
evaluation, statistics, and technical assistance and training programs to
improve the nation’s understanding of and response to juvenile violence and
delinquency.

Office for Victims of Crime (OVC). This bureau was established through
the Victims of Crime Act of 1984 § 1411. OVC provides funding to States to
support programs that provide direct assistance to crime victims and
compensate crime victims for medical and other unreimbursed expenses
                                    - 30 -
resulting from violent crimes. OVC also sponsors training for State, and
local criminal justice officials and other professionals to help improve their
response to crime victims and their families.

PROGRAM OFFICES

Office of the Police Corps and Law Enforcement Education (OPCLEE).
This program office was also created by the Violent Crime Control and Law
Enforcement Act of 1994, but was established in the Office of Community
Oriented Policing Services (COPS). In November 1998, OPCLEE transferred
from the COPS Office to OJP. OPCLEE provides college educational
assistance to students who commit to public service and to dependent
children of officers killed in the line of duty.

Office on Violence Against Women (VAWO). This program office was
established by the Violence Against Women Act of 1994. This office
administers programs designed to detect, prevent, and stop violence against
women, including domestic violence, sexual assault, and stalking.
Subsequent legislation has established new programs, such as initiatives
addressing elder abuse, violence against women with disabilities, transitional
housing for domestic violence victims, battered immigrants, victims of dating
violence.

Office for Domestic Preparedness (ODP). This program office was
administratively established by the Conference Report 105-504 for the
Commerce/Justice/State Appropriations for 1998 (P.L. 105-119); the
Attorney General delegated authority to OJP to establish a program to
develop and administer training for safety against biological and chemical
terrorism. ODP develops and implements a national program to enhance the
capacity of State and local agencies to respond to incidents of domestic
terrorism, particularly those involving weapons of mass destruction, through
coordinated training, equipment acquisition, technical assistance, and
support for Federal, State, and local exercises.

Community Capacity Development Office. This program office provides
direct services to the field by working closely with local communities to
empower them to solve local problems and build capacity at the local level.
This office includes the Executive Office for Weed and Seed and the
American Indian and Alaskan Native Desk.

      Executive Office for Weed and Seed (EOWS). This program office
      was established by the Department and Related Agencies
      Appropriations Act. EOWS coordinates the Weed and Seed strategy, a
      community based, multi-disciplinary approach to combating crime.

                                     - 31 -
       The office provides funding in attempts to weed out violent crime,
       gang activity, and drug use and trafficking in target areas, and then
       seed the target area by restoring the neighborhood through social and
       economic revitalization.

       American Indian and Alaskan Native Desk. This office was
       established in OJP to enhance access to information by Federally
       recognized American Indian and Alaskan Native tribes regarding
       funding opportunities, training and technical assistance, and other
       relevant information.

SUPPORT OFFICES

Office for Civil Rights (OCR). This support office is responsible for
ensuring that recipients of financial assistance from OJP, its component
organizations, and the COPS Office are not engaged in prohibited
discrimination. The OCR ensures that potential and existing grantees fully
comply with all civil rights laws and regulations so that needed State
assistance may commence or continue.

Office of General Counsel (OGC). This support office provides legal
advice and guidance to OJP and its component bureaus.

Office of Communications. This support office is responsible for managing
media and congressional activities to include:

   •   Notifying affected Congress members, United States Attorneys,
       governors, and State courts of OJP grants awarded each year.
   •   Tracking legislation that affects OJP.
   •   Managing correspondence and responses.
   •   Maintaining speeches and testimony.
   •   Preparing briefing books and papers for congressional hearings.
   •   Preparing reports such as OJP Annual Report.

This office also now includes the publishing central functions.

Chief Information Office. This support office provides automated systems
development and support and network integration for OJP.

Office of Management and Administration. This support office combines
the Office of Administration (except the Information Resources Management
Division), Office of Budget and Management Services, Office of the
Comptroller, and the Equal Employment Opportunity Office.


                                     - 32 -
Office of Administration (OA). This support office serves as the
principal advisor to the Assistant Attorney General for OJP on matters
involving human resources recruitment and management; labor
relations; contracting and procurement; property and space
management; and the maintenance, safety, and security of facilities.

Office of Budget and Management Services (OBMS). This
support office manages a wide variety of budget execution,
formulation, and presentation activities, as well as management and
planning, correspondence analysis, and coordination activities within
OJP. Specifically, OBMS directs, coordinates, and prepares OJP's
annual budget requests to Congress, the Office of Management and
Budget, and the Department of Justice. Following annual
appropriations, OBMS allocates and tracks all OJP funds, maintaining
control of agency obligations, including grants, payments, agreements,
and contracts. In addition, OBMS works with OJP's bureaus and offices
to implement the National Performance Review, the Federal Managers'
Financial Integrity Act, the Government Performance and Results Act,
as well as other initiatives. Through its Executive Secretariat Staff,
OBMS manages OJP's correspondence control system and provides
advice and assistance to OJP components in the area of
correspondence control. Finally, together with the Office of
Congressional and Public Affairs, OBMS coordinates the Department's
Young American Medals Program--a Presidential award program that
recognizes deserving youth for acts of bravery and service.

Office of the Comptroller (OC). This support office is the principal
advisor to the Assistant Attorney General for OJP on matters involving
fiscal policy guidance and control, and supports accounting, financial
and grants management, and claims collection services. The OC is
comprised of four divisions responsible for providing support services
for the offices and bureaus that comprise OJP. The four divisions are
the: 1) Financial Management Division, 2) Accounting Division,
3) Monitoring Division, and 4) Training and Policy Division. The
Financial Management Division is responsible for providing advice and
guidance to OJP's offices and bureaus in the area of the financial
management of grants and cooperative agreements, which includes
ensuring the financial management and fiscal integrity of fund
recipients; monitoring the internal grant process to ensure all required
business management and fiscal integrity practices and actions are
performed; conducting budget reviews of grant applications;
developing, negotiating, and approving indirect cost allocation plans;
providing technical assistance, both pre- and post-award, to grantees
and program offices; and post-award administration of grants. The

                              - 33 -
Accounting Division is responsible for planning, developing,
implementing, maintaining and upgrading an integrated accounting
system in conformance with appropriate laws, regulations, and
policies, to ensure proper fund accountability, fiscal control, and
availability of financial data for decision making. The Monitoring
Division is responsible for providing financial monitoring of grantees
and monitoring, tracking, and resolving grantee audit reports, as well
as providing technical assistance to grantees and program offices. The
Training and Policy Division is responsible for providing financial
management training and technical assistance to grantees, OJP, and
Department staff, as well as the development and implementation of
internal and external financial management policy.

Equal Employment Opportunity Office (EEO). This support office
is responsible for ensuring that OJP provides equal employment
opportunity for all employees and applicants on the basis of merit and
without regard to race, color, religion, sex, age, national origin, sexual
orientation, and physical or mental disability.




                               - 34 -
                                                             APPENDIX 2

                 DESCRIPTION OF GRANTS AWARDED
                BY THE OFFICE OF JUSTICE PROGRAMS


OFFICE OF JUVENILE JUSTICE AND DELINQUENCY
PREVENTION (OJJDP)

Juvenile Accountability Incentive Block Grants Program (JAIBG)

The purpose of this program is to: 1) provide funds to develop programs to
promote greater accountability in the juvenile justice system, 2) survey the
field and identify projects that would benefit from research, demonstration,
and evaluation in the 12 purpose areas identified in the JAIBG Program, and
3) provide training and technical assistance to States and units of local
government so they may develop programs outlined in the 12 program
areas to promote greater accountability in the juvenile justice system.

Juvenile Justice and Delinquency Prevention - Allocation to States

The purpose of this program is to increase the capacity of State and local
governments to support the development of more effective education,
training, research, prevention, diversion, treatment, accountability based
sanctions, and rehabilitation programs in the area of juvenile delinquency
and programs to improve the juvenile justice system.

Juvenile Justice and Delinquency Prevention - Special Emphasis
(Program Grants and Discretionary Grants)

The purpose of this program is to develop and implement programs that
design, test, and demonstrate effective approaches, techniques and methods
for preventing and controlling juvenile delinquency, such as: community
based-alternatives to institutional confinement; developing and
implementing effective means of diverting juveniles from the traditional
juvenile justice system; programs stressing advocacy activities aimed at
improving services to youth impacted by the juvenile justice system; model
programs to strengthen and maintain the family unit including self-help
programs; prevention and treatment programs relating to juveniles who
commit serious crimes; programs to prevent hate crimes; programs to
provide aftercare and reintegration services; and programs to prevent youth
gun and gang violence.


                                   - 35 -
National Institute for Juvenile Justice and Delinquency Prevention

The purpose of this program is to encourage, coordinate, and conduct
research and evaluation of juvenile justice and delinquency prevention
activities; to provide for public and private agencies, institutions, justice
system agencies, a clearinghouse and information center for collecting,
disseminating, publishing, and distributing information on juvenile
delinquency; to conduct national training programs of juvenile related
issues, and provide technical assistance and training to Federal, State, and
local governments, courts, corrections, law enforcement, probation, public
and private agencies, institutions, and individuals, in the planning,
establishment, funding, operation, or evaluation of juvenile delinquency
programs.

Missing Children's Assistance

The purpose of this program is to: 1) coordinate Federal missing and
exploited children activities and to support research, training, technical
assistance, and demonstration programs to enhance the overall response to
missing children and their families; and 2) establish and maintain a national
resource center and clearinghouse dedicated to missing and exploited
children issues; 3) conduct national incidence studies to determine the type
and extent of missing children in America; 4) support law enforcement
demonstration programs (e.g., the Internet Crimes Against Children Task
Force Program) to enhance the investigative response to missing and
exploited children cases; 5) support research to broaden understanding of a
wide range of missing and exploited children issues (e.g., abduction
homicide investigation solvability factors), to inform training and technical
assistance efforts and to identify promising practices and programs for
replication; 6) develop training programs for law enforcement, child
protective services, medical personnel, and prosecutors to enhance
coordination and effectiveness of missing and exploited children
investigations and to enhance the overall system response; 7) identify
service gaps and develop programs to meet specialized needs of parents or
guardians of children who are reported missing; 8) provide a national central
registry and toll-free hotline service to assist community organizations and
law enforcement personnel to identify and return adults suffering from
Alzheimer's disease who have wandered from home; and
9) provide training, technical assistance, and publications to enhance
community wide responses to wandering incidents by memory impaired
adults.




                                    - 36 -
Gang-Free Schools and Communities – Community-Based Gang
Intervention

The purpose of this program is to: 1) prevent and to reduce the
participation of juveniles in the activities of gangs that commit crimes;
2) develop within the juvenile adjudicator and correctional systems new and
innovative means to address the problems of juveniles convicted of serious
drug-related and gang-related offenses; 3) provide treatment to juveniles
who are members of such gangs, including members who are accused of
committing a serious crime and members who have been adjudicated as
being delinquent; 4) promote the involvement of juveniles in lawful activities
in geographical areas in which gangs commit crimes;
5) promote and support, with the cooperation of community-based
organizations experienced in providing services to juveniles engaged in
gang-related activities and cooperation of local law enforcement agencies,
the development of policies and activities in public elementary and
secondary schools which will assist such schools in maintaining a safe
environment conducive to learning; 6) assist juveniles who are, or may
become, members of gangs to obtain appropriate educational instruction, in
or outside a regular school program, including the provision of counseling
and other services to promote and support the continued participation of
such juveniles in such instructional programs; 7) expand the availability of
prevention and treatment services relating to the illegal use of controlled
substances and controlled substances analogues by juveniles, provided
through State and local health and social services agencies; 8) provide
services to prevent juveniles from coming into contact with the juvenile
justice system again as a result of gang-related activity; 9) provide services
at a special location in a school or housing project; and 10) facilitate
coordination and cooperation among local education, juvenile justice,
employment, and social service agencies; and community-based programs
with a proven record of effectively providing intervention services to juvenile
gang members for the purpose of reducing the participation of juveniles in
illegal gang activities.

Victims of Child Abuse

The purpose of this program is to: 1) develop model technical assistance
and training programs to improve the courts' handling of child abuse and
neglect cases; 2) facilitate the adoption of laws to protect children against
the potential second assault of the courtroom proceeding; 3) address the
present situation in which many States have adopted innovative procedures
that have far outpaced Federal law, leaving those children who do enter the
Federal system inadequately protected; 4) address the inconsistency and
disparity among State laws on child abuse; 5) train criminal justice system

                                    - 37 -
personnel on up-to-date, innovative techniques for investigating and
prosecuting child abuse cases; 6) promote a multidisciplinary approach to
coordinating the investigations and prosecution of child abuse cases and,
thereby, limiting the number of pre-trial interviews a child must go through
as well as better assure the accuracy of each interview; and 7) increase the
number of communities making use of a Children's Advocacy Center
approach to the investigation, prosecution and treatment of child abuse
cases.

Title V Delinquency Prevention Program

The purpose of this program is to increase the capacity of State and local
governments to support the development of more effective prevention
programs to improve the juvenile justice system through risk and protective
factor focused programming approach.

Part E State Challenge Activities (Challenge Grants)

The purpose of this program is to provide incentives for States participating
in the Formula Grants Program to develop, adopt, and approve policies and
programs in one or more of ten specified challenge activities to improve the
State's juvenile justice system.

Juvenile Mentoring Program (JUMP)

The purpose of this program is to reduce juvenile delinquency and gang
participation, improve academic performance, and reduce the dropout rate
through the use of mentors for at-risk youth.

Enforcing Underage Drinking Laws Program

The purpose of this program is to support and enhance efforts by States, in
cooperation with local jurisdictions, to enforce underage drinking by
prohibiting the sale of alcoholic beverages, or the consumption of alcoholic
beverages by minors.

Drug Prevention Program

The purpose of this program is to reduce drug use by encouraging the
promotion of multiple approaches including replicating the Life Skills Training
(drug prevention) program, and educating and motivating young adolescents
to pursue healthy lifestyles and fostering interpersonal and decision making
skills, which will help them choose alternatives to high risk behaviors.


                                    - 38 -
Drug-Free Communities Support Program Grants

The purpose of this program is to: 1) increase the capacity of community
coalitions to reduce substance abuse among youth, and over time, to reduce
substance abuse among adults through strengthening collaboration among
communities, public, and private entities; and 2) disseminate state-of-the-
art information on practices and initiatives that have proven to be effective
in reducing substance abuse among youth.

Reduction and Prevention of Children's Exposure to Violence
(Safe Start)

The purpose of this program is to develop a demonstration initiative to
prevent and reduce the impact of family and community violence on young
children (primarily from birth to six years of age) by helping communities to
expand existing partnerships between service providers (such as law
enforcement, mental health, health, early childhood education and others) to
create a comprehensive service delivery system.

Tribal Youth Program

The purpose of this program is to support and enhance tribal efforts for
comprehensive delinquency prevention, control, and juvenile justice system
improvement for Native American youth.

National Evaluation of the Safe Schools - Healthy Student Initiative

The purpose of this program is to conduct an evaluation of the Safe
Schools/Healthy Students Initiative.

BUREAU OF JUSTICE STATISTICS (BJS)

State Justice Statistics Program for Statistical Analysis Centers
(SACs)

The purpose of this program is to provide financial and technical assistance
to State governments for the establishment and operation of Statistical
Analysis Centers (SACs) to collect, analyze, and disseminate justice
statistics.

National Criminal History Improvement Program (NCHIP)

The purpose of this program is to: 1) enhance the quality and completeness
of the nation's criminal history record systems; 2) provide financial and

                                    - 39 -
technical assistance to States for the establishment or improvement of
computerized criminal history record systems and in their efforts to collect
data on stalking and domestic violence; 3) improve data accessibility and
support data transmissions to the national system which will permit the
immediate identification of persons who are prohibited from purchasing
firearms, are subject to domestic violence protective orders, or are ineligible
to hold positions of responsibility involving children, the elderly, or the
disabled; 4) support the development of accurate and complete State sex
offender identification and registration systems which interface with the
FBI's Sex Offender Registry and meet applicable Federal and State
requirements; 5) develop and improve the processes for identifying,
classifying, collecting, and entering data regarding stalking and domestic
violence into local, State, and national crime information databases; and
6) ensure that criminal justice systems are designed, implemented or
upgraded to be compliant where applicable, with the FBI operated National
Instant Criminal Background Check System and Interstate Automated
Fingerprint Identification System, meet other applicable statewide or
regional criminal justice information sharing standards and plans, and build
upon ongoing efforts so as to support the wide range of technology based,
criminal justice information, identification, and communications needs
identified by the States.

National Incident Based Reporting System (NIBRS)

The purpose of this program is to allow State and local jurisdictions to
capture detailed offense, offender, victim, property, and arrest information.
NIBRS moves beyond aggregate statistics and raw counts of crimes and
arrests that comprise the summary Uniform Crime Reports program to
individual records for each reported crime incident and its associated arrest.

NATIONAL INSTITUTE OF JUSTICE (NIJ)

Justice Research, Evaluation, and Development Project Grants

The purpose of this program is to encourage and support research,
development, and evaluation to further understanding of the causes and
correlates of crime and violence, methods of crime prevention and control,
and criminal justice system responses to crime and violence and contribute
to the improvement of the criminal justice system and its responses to
crime, violence and delinquency.




                                    - 40 -
National Institute of Justice Visiting Fellowships

The purpose of this program is to provide opportunities for experienced
criminal justice practitioners and researchers to pursue projects aimed at
improved understanding of crime, delinquency and criminal justice
administration by sponsoring research projects of their own creation and
design.

Criminal Justice Research and Development - Graduate Research
Fellowship Program

The purpose of this program is to improve the quality and quantity of
knowledge about crime and the criminal justice system, while, at the same
time, helping to increase the number of persons who are qualified to teach in
collegiate criminal justice programs, to conduct research related to criminal
justice issues, and to perform more effectively within the criminal justice
system.

Corrections and Law Enforcement Family Support

The purpose of this program is to: 1) research the effects of stress on law
enforcement and correctional personnel and their families and disseminate
the findings; 2) identify and evaluate model programs that provide support
services to law enforcement correctional personnel and families; 3) provide
technical assistance and training programs to develop stress-reduction and
family support programs to State and local law enforcement and correctional
agencies; 4) collect and disseminate information regarding family support,
stress-reduction, and psychological services to State and local law
enforcement and correctional organizations and other interested parties; and
5) determine issues to be researched by the Department of Justice and grant
recipients.

Crime Laboratory Improvement-Combined Offender DNA Index
System Backlog Reduction

The purpose of this program is to increase the capabilities and capacity of
State and local crime laboratories in the United States to conduct state-of-
the-art forensic evidence testing and to reduce the backlog of convicted
offender deoxyribonucleic acid (DNA) samples.




                                    - 41 -
National Institute of Justice Domestic Anti-Terrorism Technology
Development Program

The purpose of this program is to support the development of counter
terrorism technologies, assist in the development of standards for those
technologies, and work with State and local jurisdictions to identify particular
areas of vulnerability to terrorist acts and be better prepared to respond if
such acts occur.

BUREAU OF JUSTICE ASSISTANCE (BJA)

Public Safety Officers' Benefits Program

The purpose of this program is to provide a death benefit to: 1) eligible
survivors of Federal, State or local public safety officers whose death is the
direct and proximate result of a personal (traumatic) injury sustained in the
line of duty, and 2) public safety officers who have been permanently and
totally disabled as the direct result of a catastrophic personal injury
sustained in the line of duty.

Emergency Federal Law Enforcement Assistance

The purpose of this program is to provide necessary assistance to a State
government in order to provide an adequate response to an uncommon
situation which requires law enforcement, which is or threatens to become of
serious or epidemic proportions, and with respect to which State and local
resources are inadequate to protect the lives and property of citizens, or to
enforce the criminal law.

Federal Surplus Property Transfer Program

The purpose of this program is to transfer or convey to State and local
governments and territories, at no cost, surplus real and related personal
property determined by the Attorney General to be required for correctional
facility or law enforcement use for programs or projects for the care or
rehabilitation of criminal offenders, as approved by the Attorney General.

Byrne Formula Grant Program

The purpose of this program is to reduce and prevent illegal drug activity,
crime, and violence and to improve the functioning of the criminal justice
system.



                                     - 42 -
Edward Byrne Memorial State and Local Law Enforcement Assistance
Discretionary Grants Program (Discretionary Drug and Criminal
Justice Assistance Program)

The purpose of this program is to provide leadership and direction in
controlling the use and availability of illegal drugs and to improve the
functioning of the criminal justice system, with emphasis on violent crime
and serious offenders.

Local Law Enforcement Block Grants Program

The purpose of this program is to provide funds to units of local government
for the purposes of reducing crime and improving public safety. Funds may
be used for one or more of seven program purpose areas. Funds or a
portion of funds may also be used to contract with private, nonprofit entities
or community-based organizations to carry out the purposes of this Block
Grants Program. BJA will also make awards to States based on the
allocation formula specified in the applicable legislation.

Motor Vehicle Theft Protection Act Program (Watch Your Car)

The purpose of this program is to develop, in cooperation with the States, a
national voluntary motor vehicle theft prevention program. The national
"Watch Your Car" program is designed as a cooperative initiative between
the States, local governments, and the U.S. Department of Justice, Bureau
of Justice Assistance. It allows owners of motor vehicles to voluntarily
display a decal or device on their vehicles to alert police that their vehicle is
not normally driven between the hours of 1:00 a.m. and 5:00 a.m.
Motorists may also choose to display another decal or device to signify their
vehicle is not normally driven across or in the proximity of international land
borders or ports.

State Identification Systems (SIS) Grant Program

The purpose of this program is to provide Federal assistance to States to
establish, develop, update, or upgrade: 1) computerized identification
systems that are compatible and integrated with the database of the
National Crime Information Center (NCIC) at the FBI; 2) the capability to
analyze DNA in a forensic laboratory in ways that are compatible with the
combined DNA Identification Systems (CODIS) of the FBI; and 3) automated
fingerprint identification systems that are compatible and integrated with the
Integrated Automation Fingerprint Identification System (IAFIS) of the FBI.



                                     - 43 -
State Criminal Alien Assistance Program (SCAAP)

The purpose of this program is to provide Federal assistance to States and
units of local government incurring costs of incarcerating illegal aliens
convicted of one felony or two misdemeanor offenses and to expedite the
transfer of custody for certain deportable aliens.

The Bulletproof Vest Partnership Program

The purpose of this program is to protect the lives of law enforcement
officers by helping State, local, and tribal law enforcement agencies provide
officers with armored vests.

Tribal Court Assistance Program

The purpose of this program is to assist tribal governments in the
development, enhancement, and continuing operation of tribal judicial
systems, including inter-tribal court systems.

Planning, Implementing, and Enhancing Strategies in Community
Prosecution

The purpose of this program is to emphasize the participation of community
leaders and residents in developing strategies for public safety with
prosecutors and other community justice system officials. The program
serves as a mechanism for community participation that allows communities
to identify local priorities and engage in problem solving and strategic
planning, as well as regular communication between the prosecutor's office
and community residents. In addition, the program helps develop a
proactive orientation to crime control, emphasizing prevention and
enforcement.

Regional Information Sharing Systems Grants (RISS)

The purpose of this program is to enhance the ability of the State and local
criminal justice agencies to identify, target, and remove criminal
conspiracies and activities that span jurisdictional boundaries. The first
objective of the Regional Information Sharing Systems Program (RISS) is to
encourage and facilitate the rapid exchange and sharing of information
among Federal, State, and local law enforcement agencies pertaining to
known or suspected criminals or criminal activity. The second objective is to
enhance coordination and communication among agencies that are in pursuit
of criminal conspiracies determined to be inter-jurisdictional in nature. In
addition, the RISS Program may provide technical and financial resources,

                                    - 44 -
such as specialized equipment, training, and investigative funds, to augment
existing multi-jurisdictional enforcement resources and operations.

Closed-Circuit Televising of Child Victims of Abuse (CCTV)

The purpose of this program is to provide equipment and personnel training
for the closed circuit televising and videotaping of the testimony of children
in criminal proceedings for the violation of laws relating to the abuse of
children.

National White Collar Crime Center (NWCCC)

The purpose of this program is to provide a nationwide support system for
the prevention, investigation, and prosecution of economic crime. The
National White Collar Crime Center (NWCCC) links criminal justice agencies
across jurisdictional borders and bridges the gap between local and State
criminal justice agency economic crime-fighting capabilities and the
minimum threshold for Federal investigation and intervention. The Center
provides support for the prevention, investigation, and prosecution of
economic crime through a combination of research, training, and
investigative support services. The center also hosts the National
Cybercrime Training partnership, which provides training to State and Local
law enforcement and prosecutorial agencies in how to respond successfully
to computer related crime.

Scams Targeting the Elderly

The purpose of this program is to reduce the incidence of fraud and abuse
against the elderly through training and technical assistance programs,
demonstration sites, public awareness initiatives, and reporting of fraud to
the National Fraud Information Center.

State and Local Anti-Terrorism Training (SLATT)

The purpose of this program is to provide delivery of specialized,
multiagency anti-terrorism preparedness training. This training, along with
related research, law enforcement intelligence, operational issues
development, and technical assistance support activities, is delivered to
State and local law enforcement and prosecution authorities. While State
and local law enforcement preparation and readiness issues addressed in
this project are tailored to interventions in domestic terrorism, major
portions of the program's preparedness and operational readiness outcomes
are equally applicable to any terrorist threat or incident, whether
domestically or internationally inspired.

                                    - 45 -
Public Safety Officers' Educational Assistance (PSOEA)

The purpose of this program is to provide financial assistance for higher
education to the spouses and children of public safety officers killed in line of
duty or who received permanent and totally disabling injuries that occurred
on or after October 1, 1997.

OFFICE FOR VICTIMS OF CRIME (OVC)

Crime Victim Assistance

The purpose of this program is to provide compensation and assistance to:
1) residents, who while outside of the U.S. become a victim of a terrorist act
or mass violence; 2) eligible State compensation and assistance programs to
provide emergency relief, including crisis response efforts, assistance,
training, technical assistance for the benefit of victims of terrorist acts or
mass violence occurring within the U.S.; and 3) U.S. Attorney's Offices for
use in coordination with State victim compensation and assistance efforts in
providing emergency relief.

Crime Victim Compensation

The purpose of this program is to provide funds to States for awards of
compensation benefits to crime victims.

Crime Victim Assistance/Discretionary Grants

The purpose of this program is to provide funds for: 1) demonstration
projects and training and technical assistance services to eligible crime
victims assistance programs; 2) financial support of services to victims of
Federal crime by eligible crime victim assistance programs; and 3) other
support following cases of terrorism or mass violence.

Children's Justice Act Discretionary Grants for Native Americans
(Children's Justice Act Partnership for Native American Indian
Tribes)

The purpose of this program is to assist Native American Indian tribes in
developing, establishing, and operating programs designed to improve the
handling of child abuse cases, particularly cases of child sexual abuse, in a
manner which limits additional trauma to the child victim and improves the
investigation and prosecution of cases of child abuse.


                                     - 46 -
CIVIL RIGHTS DIVISION (OCR)

Americans With Disabilities Act (ADA) Technical Assistance Program

The purpose of this program is to ensure that public accommodations and
commercial facilities and State and local governments learn of the
requirements of Titles II and III of the Americans with Disabilities Act (ADA)
and acquire the knowledge needed to comply with these requirements.

Education and Enforcement of the Antidiscrimination Provision of the
Immigration and Nationality Act (INA)

The purpose of this program is to educate employers and workers about
their rights and responsibilities under the Immigration and Nationality Act
(INA) in order to prevent employment discrimination based on citizenship
status or national origin.

DRUG COURTS PROGRAM OFFICE (DCPO)

Drug Court Discretionary Grant Program (Drug Court Program)

The purpose of this program is to support the establishment and
development of drug courts to include those that give special attention to
alcohol problems in addition to drugs, for example, driving under the
influence or driving while intoxicated drug courts.

CORRECTIONS PROGRAM OFFICE (CPO)

Violent Offender Incarceration and Truth in Sentencing Incentive
Grants (Prison Grants)

The purpose of this program is to provide funds to individual States and to
States organized as regional compacts to build or expand: 1) correctional
facilities to increase the bed capacity for the confinement of violent
offenders; 2) temporary or permanent correctional facilities including
facilities on military bases, prison barges and boot camps for the
confinement of nonviolent offenders for the purpose of freeing prison space
for violent offenders; and 3) jails.

Residential Substance Abuse Treatment for State Prisoners (RSAT)

The purpose of this program is to assist States and units of local government
in developing and implementing residential substance abuse treatment
programs within State and local correctional facilities in which prisoners are

                                    - 47 -
incarcerated for a period of time sufficient to permit substance abuse
treatment.

Prevention, Diagnosis, and Treatment of Tuberculosis in Correctional
Institutions

The purpose of this program is to assist States, units of local government,
and Indian tribal authorities in establishing and operating programs for the
prevention, diagnosis, treatment, and follow-up care of tuberculosis among
inmates of correctional institutions.

Correctional Grant Program for Indian Tribes

The purpose of this program is to assist Indian tribes with the construction
of jails on tribal lands for the incarceration of offenders subject to tribal
jurisdiction.

OFFICE ON VIOLENCE AGAINST WOMEN (VAWO)

Legal Assistance for Victims

The purpose of this program is to increase the availability of direct legal
services to victims of domestic violence, sexual assault, and stalking in
matters arising from the abuse or violence. The goal is to develop
innovative, collaborative programs within the legal system that promote
victim safety.

Grants to Reduce Violent Crimes Against Women on Campus

The purpose of this program is to encourage institutions of higher education
to adopt comprehensive, coordinated responses to violence against women,
including sexual assault, stalking, dating, and domestic violence.

Violence Against Women Discretionary Grants for Indian Tribal
Governments

The purpose of this program is to assist Indian tribal governments to
develop and strengthen effective law enforcement and prosecution strategies
to combat violent crimes against women, and to develop and strengthen
victim services in cases involving violent crimes against women.




                                     - 48 -
Formula Grants

The purpose of this program is to assist States, Indian tribal governments,
tribal courts, State and local courts, and units of local government to
develop and strengthen effective law enforcement and prosecution strategies
to combat violent crimes against women, and to develop and strengthen
victim services in cases involving crimes against women. The Program
encourages the development and implementation of effective, victim-
centered law enforcement, prosecution, and court strategies to address
violent crimes against women and the development and enhancement of
victim services in cases involving violent crimes against women.

Rural Domestic Violence and Child Victimization Enforcement Grant
Program

The purpose of this program is to: 1) implement, expand, and establish
cooperative efforts and projects between law enforcement officers,
prosecutors, victim advocacy groups, and other related parties to investigate
and prosecute incidents of domestic violence, dating violence and child
abuse; 2) provide treatment, counseling and assistance to victims of
domestic violence, dating violence and child victimization, including in
immigration matters; and 3) work in cooperation with the community to
develop education and prevention strategies directed toward such issues.

Grants to Encourage Arrest Policies and Enforcement of Protection
Orders

The purpose of this program is to: 1) implement mandatory arrest or
proarrest programs and policies in police departments, including mandatory
arrest programs and policies for protection order violations, as part of a
coordinated community response to domestic violence; 2) develop policies,
educational programs, and training programs in police departments to
improve tracking of cases involving domestic violence and dating violence;
3) centralize and coordinate police enforcement, prosecution, probation,
parole and/or judicial responsibility for domestic violence cases in groups or
units of police officers, prosecutors, probation and parole officers, or judges;
4) coordinate computer tracking systems to ensure communication between
police, prosecutors, parole and probation officers and both criminal and
family courts; 5) strengthen legal advocacy service programs for victims of
domestic violence and dating violence, including strengthening assistance to
such victims in immigration matters; 6) educate judges in criminal and other
courts about domestic violence and to improve judicial handling of such
cases; 7) provide technical assistance and computer and other equipment to
police departments, prosecutors, courts, and tribal jurisdictions to facilitate

                                     - 49 -
the widespread enforcement of protection orders, including interstate
enforcement, enforcement between States and tribal jurisdictions, and
enforcement between tribal jurisdictions; and 8) develop or strengthen
policies and training for police, prosecutors, and the judiciary in recognizing,
investigating, and prosecuting instances of domestic violence and sexual
assault against older individuals and individuals with disabilities.

Managing Released Sex Offenders

The purpose of this program is to establish criteria and provide training and
technical assistance on case management, supervision, and relapse
prevention to assist probation and parole officers and other criminal justice
practitioners who interact with released sex offenders.

EXECUTIVE OFFICE FOR WEED AND SEED (EOWS)

Executive Office for Weed and Seed (Weed and Seed Program)

The purpose of this program is to implement nationwide a comprehensive,
multi-disciplinary approach to combating violent crime, drug use, and gang
activity in high crime neighborhoods. The goal is to "weed out" violence and
drug activity in high crime neighborhoods, and then to "seed" the sites with
a wide range of crime and drug prevention programs, human service
resources, and neighborhood restoration activities to prevent crime from
reoccurring. The strategy emphasizes the importance of a coordinated
approach, bringing together Federal, State and local government, the
community, and the private sector to form a partnership to create a safe,
drug-free environment.

OFFICE FOR DOMESTIC PREPAREDNESS (ODP)

State Domestic Preparedness Equipment Support Program

The purpose of this program is to provide funds to plan for and execute a
comprehensive threat and needs assessment, to develop a 3-year plan to
enhance first responder capabilities, and to provide for equipment purchases
and the provision of specialized training.

State and Local Domestic Preparedness Training Program

The purpose of this program is to provide training to State and local
jurisdictions to respond to Weapons of Mass Destruction (WMD) domestic
terrorist incidents involving nuclear, biological, chemical, and explosive
devices.

                                     - 50 -
State and Local Domestic Preparedness Exercise Support

The purpose of this program is to provide exercise planning to State and
local jurisdictions and to conduct national, State, and local exercises for
response to WMD domestic terrorist incidents involving nuclear, biological,
chemical, and explosive devices.

State and Local Domestic Preparedness Technical Assistance

The purpose of this program is to provide direct assistance to State and local
jurisdictions in enhancing their capacity and preparedness to respond to
WMD domestic terrorist incidents involving nuclear, biological, chemical, and
explosive devices. The program goals are to enhance the ability of State and
local jurisdictions to develop, plan, and implement a program for WMD
preparedness and to sustain and maintain specialized equipment.

Local Firefighting and Emergency Services Training

The purpose of this program is to provide specialized training and equipment
to enhance the capability of metropolitan fire and emergency service
departments to respond to terrorist attacks, and fund demonstration sites in
urban communities where innovative fire and emergency services training
programs may be replicated in other communities.

OFFICE OF THE POLICE CORPS AND LAW ENFORCEMENT
EDUCATION (OPCLEE)

Police Corps and Law Enforcement Officers Training and Education

The purpose of this program is to address violent crime by increasing the
number of police with advanced education assigned to community patrol in
areas of great need, and to provide educational assistance to students who
possess a sincere interest in public service through law enforcement and to
law enforcement personnel. This program also offers no-obligation college
scholarships to children of law enforcement officers killed in the line of duty.




                                     - 51 -
                                                               APPENDIX 3

         DESCRIPTION OF COMMUNITY POLICING GRANTS
                 AWARDED BY THE OFFICE OF
           COMMUNITY ORIENTED POLICING SERVICES

Advancing Community Policing (ACP). This program began in FY 1997
and was designed to help law enforcement agencies align their systems and
processes to be more consistent with their organizational values and further
their primary mission to increase public safety, reduce crime, and solve
crime problems. The grants funded innovations at all levels of recipient
organizations that worked to change the traditional, response-oriented
culture to one that values the partnerships and analysis that result in
tailored interventions.

Anti-Gang Initiatives. This program began in FY 1996 and was designed
to bring effective community policing strategies to the front line in the battle
against gangs.

Accelerated Hiring, Education, and Deployment (AHEAD). This
program was open to law enforcement agencies serving populations of more
than 150,000. Applicants were required to submit a "Letter of Intent to
Participate" to the Office of Community Oriented Policing Services (COPS)
providing information regarding the number of officers requested through
this grant program. The AHEAD program was designed to provide funding
directly to local, State, and tribal jurisdictions for officers engaged in
community policing. The grants were to provide State funding for 75
percent of a newly hired entry-level officer’s salary and benefits, up to a
maximum amount of $75,000 per officer, over the course of the three-year
grant period. This program was merged into the Universal Hiring Program in
1995.

COPS in Schools (CIS). This program was developed for law enforcement
agencies that were eligible to apply for funding through a Universal Hiring
Program grant. The CIS program is designed to fund the hiring of
community policing officers to work in school. The maximum award per
officer is $125,000 with any remainder to be paid with State or local funds.

Distressed Neighborhoods Pilot Project (DNP). This was a 1998
program that funded projects in cities with higher crime rates, poverty, and
unemployment. The targeted cities received Universal Hiring Program
grants with full waivers of COPS’s local funding match requirements.


                                     - 52 -
Community Policing to Combat Domestic Violence (DV). This was a
1996 program that funded innovative community policing efforts to curb
domestic violence by developing partnerships between law enforcement
agencies and community organizations.

Evaluation and Research Grants. This program was designed to fund
policing agencies, universities, and criminal justice facilities to evaluate
community policing and conduct research that relates to the field.

Funding Accelerated for Smaller Towns (FAST). This program was
developed by COPS, as directed by Congress, to simplify the application
process to be used by jurisdictions serving populations under 150,000.
Agencies were required to submit a one-page application form to apply for a
grant. The FAST program was designed to provide funding directly to local,
State, and tribal jurisdictions for officers engaged in community policing.
The grants were to provide State funding for 75 percent of a newly hired
entry-level officer’s salary and benefits, up to a maximum amount of
$75,000 per officer, over the course of the three-year grant period. This
program was merged into the Universal Hiring Program in 1995.

Hiring in the Spirit of Service. This program began in FY 2000 and
explores changes in how law enforcement officers are recruited and hired.

Police Integrity Training Initiative (INTEGRITY). This program began
in FY 1997 and provides innovative community policing training to
communities, local governments, and law enforcement professionals.

Justice Based After-School Program (JBAS). This program began in FY
2000 and is a pilot program in six cities to develop a preventive approach to
juvenile crime and victimization to improve overall quality of life in high-
crime neighborhoods.

Methamphetamine Grants (METH). This program began in FY 1998 to
help local law enforcement agencies and task forces develop innovative
community policing responses to problems related to methamphetamine
production and use.

Making Officer Redeployment Effective (MORE). This program was
developed for all law enforcement agencies, regardless of the population size
of the jurisdiction. The program is intended to expand the amount of time
current law enforcement officers can spend on community policing by
funding technology, equipment, and support staff, including civilian
personnel. Grants have been awarded for up to 75 percent of the cost of
equipment and technology, support resources (including civilian personnel),

                                     - 53 -
or to pay overtime.15 For each $25,000 in State funds received, agencies
are to redeploy the equivalent of one full-time officer.

Phase I. This program began in FY 1995 and was the initial program to hire
police officers under the Violent Crime Control and Law Enforcement Act of
1994. Awards were made to applicants not funded under the Police Hiring
Supplement program, a 1993 grant program to fund the hiring of police
officers that was administered by the Office of Justice Programs, Bureau of
Justice Assistance. The awards funded up to 75 percent of the total salary
and benefits of each officer awarded over three years, up to a maximum of
$75,000 per officer or 50 percent of the total salary and benefit costs.
Grants are no longer awarded under this program.

Problem-Solving Partnerships (PSP). This was a 1996 program that
funded partnership development between local law enforcement agencies
and community organizations to address persistent crime and disorder
problems.

Regional Community Policing Institutes (RCPI). This program began in
FY 1997 and is a national network of institutes that provide innovative
community policing training and technical assistance to law enforcement
agencies and community members.

School Based Partnerships (SBP). This was a 1998 and 1999 program
that helped policing agencies work with schools and community-based
organizations to address persistent school-related crime problems.

Secure Our Schools (SOS). This program provides up to 50 percent of the
total cost for municipalities to install metal detectors, locks, lighting, and
other equipment to help deter crime in schools. The grants can also be used
to pay half of the cost of security assessments, security training, and any
other measure that will provide a significant improvement in security at
schools.

Small Community Grant Program (SCGP). This program was developed
for communities of less than 50,000 to supplement Phase I, FAST, or
Universal Hiring Program grants by paying for a portion of the fourth-year
salaries and benefits of existing COPS-funded officers. These one-time
grants are specifically for the retention of COPS-funded police officer
positions.



      15
           Use of overtime was unallowable for grants after fiscal year 1995.

                                           - 54 -
Technology Grants (TECH). This program began in FY 1998 and funds
projects to develop technologies that will advance community policing and
help fight crime.

Tribal Mental Health Community Safety Initiative (TMHCSI). This was
a 2000 program designed to make tribal communities safer and healthier by
funding training, equipment, technology, as well as by hiring additional
community policing or school resource officers.

Tribal Resources Grant Program (TRGP). This program began in
FY 1999 and is designed to help tribal law enforcement agencies fund
training and equipment for new and existing officers as well as salary and
benefits for new community policing officers.

Troops to COPS (TROOPS). This was a 1995 and 1999 joint program with
the Department of Defense to provide incentives for COPS grantees to hire
recently separated members of the armed forces. TROOPS provided up to
$5,000 per officer to train former members of the United States armed
forces to work in local law enforcement.

Universal Hiring Program (UHP). This program was developed for all law
enforcement agencies, regardless of the population size of the jurisdiction.
UHP grants were designed to provide funding directly to local, State, and
tribal jurisdictions for officers engaged in community policing. The grants
provide State funding for 75 percent of a newly hired entry-level officer’s
salary and benefits, up to a maximum amount of $75,000 per officer, over
the course of the three-year grant period.

Value Based Initiatives (VBI). This program began in FY 2000 and
strives to improve the quality of life in various jurisdictions by helping build
partnerships between law enforcement agencies and other organizations
serving their communities.

Youth Firearms Violence Initiative (YFVI). This was a 1995 program
that funded innovative community policing efforts to curb the rise in violence
associated with young people and firearms.

311. This was a 1996 and 1998 program that provided funds for
establishing a 311 phone number system nationwide as a non-emergency
number. This new number was designed to eliminate the dependence on
the 911 system for non-emergencies.




                                      - 55 -
                                           APPENDIX 4

    OFFICE OF JUSTICE PROGRAMS’ ORGANIZATION CHARTS
            BEFORE AND AFTER REORGANIZATION

                   Pre-Reorganization




                   Post-Reorganization




Source: OJP
                       - 56 -
                                                              APPENDIX 5

         DESCRIPTION OF AUTOMATED APPLICATION SYSTEMS
             USED BY THE OFFICE OF JUSTICE PROGRAMS

System Name               System Description
AltaScan Fingerprint      This application is designed for the Office of
Scanning System           Administration’s Human Resources office to
                          transmit fingerprints of new employees to the
                          Federal Bureau of Investigation for fingerprint
                          verification.
Atomic                    This system was replaced by the Integrated
                          Financial Management Information System
                          (IFMIS) in FY 1998 but is still used weekly by the
                          Office of the Comptroller to research or reconcile
                          payments.
Audit Tracking System     This system maintains information concerning
(ATS)                     grantee annual reports and audit
                          findings/resolution. This system is scheduled for
                          elimination since the Office of Justice Programs
                          (OJP) can now rely on data from the Federal Audit
                          Clearinghouse system.
Automated Standard        This system is an online, real-time, paperless
Application for Payment   payment system for OJP grantees. This system
(ASAP)                    will replace the Letter of Credit Electronic
                          Certification System (LOCES).
Award and Finance         This system maintains information such as grantee
System (AWARDFIN)         contact, phone number, project dates, Catalog of
                          Federal Domestic Assistance codes, supplement
                          tracking, fund codes, and other information used
                          for reporting purposes.
Award Book Tracking       This system generates Redbook forms and tracks
System                    what was printed on these forms.
Bullet Proof Vest         This is an electronic, Internet-based system for
                          applications and payment requests for the Bullet
                          Proof Vests Grants Act of 1998 program.
Bureau of Justice         The BJA system for tracking grant applications.
Assistance (BJA)
Application Tracking
System for Windows
Bureau of Justice         This system tracks program and administrative
Statistics (BJS)          funds expended within the BJS.
Accounting


                                   - 57 -
BJS Application         The BJS system for tracking grant applications.
Tracking System
Configuration           This system controls, monitors, and checks
Management Tool         configuration changes, software development, and
(CMT)                   code releases.
Office of Community     This system tracks all COPS awards including all
Oriented Policing       actions taken on each grant. The original intent of
Services (COPS) Award   this system is obsolete, but the system is still used
Tracking System         to access certain information.
COPS FinCap             This system was developed to make the data
                        contained in various OJP developed COPS
                        databases available to the processing analyst in an
                        easy lookup format. The purpose of this system
                        has been eliminated but the system is still used to
                        access certain information.
COPS Vendor Tracking    This system tracks all COPS vendor information
System                  such as vendor name, legal names, addresses,
                        and various codes defining the vendor as a
                        member of various classes and provided updates
                        of this information to the Atomic system prior to
                        December 15, 1998. The intent of this system is
                        obsolete but it is still used to access certain
                        information.
Corrections Reporting   This is a subaward reporting system for newly
System                  developed Violent Offender Incarceration/Truth in
                        Sentencing (VOITIS) and Residential Substance
                        Abuse Treatment (RSAT) grants.
Correspondence          This system is used by the Office of Budget and
Tracking System         Management Services Executive Secretariat staff
                        to control and track the flow of executive
                        correspondence throughout OJP. The bureaus and
                        offices have limited access to this system.
Crime Act Support       The CASD’s system for tracking grant applications.
Division (CASD)
Application Tracking
System
Defense Procurement     This system tracks information concerning those
Fraud Debarment         convicted of committing fraud against the
System (DPFD)           Department of defense through a government
                        contract.
DPFD Mass Fax System    This system is used to send large numbers of
                        faxes to the United States Attorneys.
Denial of Federal       This system tracks claims for those who have been
                                  - 58 -
Benefits (DFB) System    denied Federal benefits.
Version 2.0 for DOS
Department’s Address     This system imports the electronic mail addresses
Book-Address Import      of users from various departments outside of OJP
                         into the Department Address Book Database.
Executive Information    This system is accessible through the internet by
System (EIS)             OJP executives to obtain information about OJP
                         projects to include scheduled costs, risks,
                         personnel, and project milestones.
Financial Monitoring     This system contains data relevant to all grants
Tracking System          monitored by the Office of the Comptroller,
(FMTS)                   including date of review, list of findings, and
                         electronic copy of the site visit report.
Forms Package            This system produces forms for the award kits,
                         including the award form, award continuation
                         sheet, special conditions, and the project summary
                         and grant adjustment notice form.
Grant Adjustment         This system is used to process GANs.
Notice (GAN) Tracking
System
Grants Management        This system is used to track OJP grants from
System (GMS)             application through grant award.
Integrated Financial     This is the Office of the Comptroller’s financial
Management               system that includes the financial status report
Information System       data for grantees.
(IFMIS)
Interior Department  This system automates and streamlines the
Electronic Acquisition
                     procurement process by allowing users to enter
System-Procurement   requisitions online; create, update, and modify
Desktop (IDEAS-PD)   requisitions and purchase orders; and perform
                     pre-award and contract administration activities.
LOCES Payment System The LOCES is used to capture payment requests of
Dial-In              grantees, approve or deny requests and create
                     payments by uploading the requests to the
                     Department of the Treasury. The LOCES system
                     has two modules. A front-end module captures
                     the requests from users who dial in using a
                     modem. A back end module processes the
                     requests.




                                   - 59 -
Local Law Enforcement      This system was developed for BJA to manage the
Block Grant (LLEBG)        LLEBG grant award process, which includes the
Award Kit                  printing of award kits, maintaining award data,
                           and reviewing the award life cycle.
LLEBG 1996 Award Kit       Same as the LLEBG Award Kit description
System
LLEBG Award Kit 1997-      Same as the LLEBG Award Kit description
1998
LLEBG Grants Binder        This system performs the same function as the
                           OJP Grants Binder system.
LLEBG Progress             This system was developed to allow BJA staff to
Reporting Quality          locate, view, edit, or print grant award progress
Control System             reports and any associated project information
                           forms that are submitted by LLEBG grantees.
LLEBG Quality Control      This system was developed for the BJA to allow
System                     LLEBG grant managers and supervisors to view
                           and edit LLEBG grant application records and
                           generate status reports.
LOCES Forms Package        This system was developed for OJP staff to
                           produce OJP Admin Forms 7182/3.
National Electronic        This system maintains data on injuries.
Injury Surveillance
National Institute of      This system tracks awards in detail to provide the
Justice (NIJ) Automated    NIJ with access to hundreds of data points about
Tracking System (ATMS      the life cycle of all NIJ grants, cooperative
– Automated Tracking       agreements, inter-agency authorizations, and
Management System)         interagency reimbursable agreements.
NIJ Application Tracking   The NIJ’s system for tracking grant applications.
System
NIJ Export System          This system exports grant application information
                           to contractors for the purpose of reviewing the
                           applications, producing letters and other output,
                           and providing recommendations as to whether
                           applications should be approved.
The Office of Juvenile     OJJDP’s system for tracking grant applications for
Justice and Delinquency    discretionary grants.
Prevention (OJJDP)
Application Tracking
System
OJJDP Application          OJJDP’s system for tracking grant applications for
Tracking System            formula grants.
(Formula)


                                    - 60 -
OJJDP Subgrant System    This system is used by OJJDP to update and track
(Reporting System)       information for OJJDP’s Formula Grant Subawards
                         table.
OJP Correspondence       This system is designed to help OJP staff track the
Tracking System          flow of correspondence from point of origin to
                         point of destination both inside each bureau and
                         office and across the entire organization.
OJP FinCap               This system was developed for OJP staff to view
                         several databases that track the award distribution
                         process. It contains information about subgrants
                         and vendors.
OJP Grants Binder        This system contains scanned images of grant
                         information such as grant award information and
                         grant applications. The system is read-only but
                         users can make virtual annotations, such as sticky
                         notes, and can highlight text on the scanned
                         images.
OJP                      This system is a compilation of databases,
Telecommunications       consisting of the address book,
Database                 telecommunications equipment database, and
                         internal telephone directory.
OJP Vendor Tracking      This system was developed to maintain and track
System                   OJP vendor information. The original intent of this
                         system is obsolete but the system is still used to
                         access certain information.
Office of Victims of     The OVC system for tracking grant applications.
Crime (OVC) Application
Tracking System
OVC Assistance          This system records annual performance reports
                        from Victim Assistance grantees and is used for an
                        audit trail and reconciliation.
OVC Compensation        This system records annual performance reports
Tracking System         from victim compensation grantees.
OVC HyperText Markup This system creates HTML files for State grantee
Language (HTML)         information from the OVC Subgrant system to be
Creator                 posted on the OVC OJP web page.
OVC Subgrant (HQ)       This is an internal system used by OVC to view
                        data for Victims of Crime Act (VOCA) Reports.
OVC Subgrant System     This is a dial-in system used by Victim Assistance
Dial-In System          grantees to record data for VOCA Reports.
OVC Training and        This system tracks expenditures by the Victim
Admin                   Assistance grantees for audit trail and
                        reconciliation.
                                  - 61 -
Phone Activated           The PAPRS is a system whereby grantees access
Paperless Request         their grant fund balances, draw down funds, and
System (PAPRS)            transfer funds between grants.
System
PAPRS Help System         This system enables Office of the Comptroller
(PAPRINFO)                accountants to determine a variety of information,
                          such as grants assigned to a certain vendor and
                          the correlation with other systems determining
                          payments eligibility.
PAPRS System Data         This system prepares personal identification
Preparation               numbers and grant ID numbers for the PAPRS
                          system users.
Program Accountability    This is the main application tracking system for all
Library (PAL)             OJP grants and is populated by program office
Application Tracking      application systems and GMS.
System
PIPELINE (renamed and     This system extracts data related to NIJ grants
is now called ATMS)       from Control Desk systems.
Property Management       The PPMIS is used to track and account for
Information System        capitalized equipment throughout OJP.
(PPMIS)
Public Safety Offices  This is the Public Safety Office grant processing
Benefit (PSOB) (Oracle)system for law enforcement, first responder’s
                       death benefits.
RSAT IPR               This is a subaward system for recipients of the
                       RSAT grant.
Standard Form (SF) 269 This system was developed for BJA to allow SCAAP
System                 grant managers and supervisors to view and edit
                       SCAAP grant application records and generate
                       status reports.
SF269 Tracking System This system uses a log menu to enter data for the
                       SF269 report. The log menu contains compliance
                       dates for the SF269 and the Categorical Progress
                       reports. This system was replaced by the IFMIS
                       269 module, but other dates are still maintained in
                       the system. Other systems such as PAPRS and
                       LOCES look to this system for data.
Tackle Box             This is an OJP Intranet system for OJP e-mail, and
                       other information pertinent to OJP.
Travel Manager (FMIS)  This system generates forms for authorization of
                       travel for DOJ employees and payment.
Violence Against       This system is used for Violence Against Women
Women Act (VAWO)       State grantees to compile information about their
Subgrants Awards       subgrants.
                                   - 62 -
Victim Assistance in   This system is similar to the VOCA Reports system
Indian Country         except that it is limited to native American
                       grantees.
VOCA Reports           This system generates internal reports on data
                       submitted by grantees about their subgrantees’
                       use of funds. The reports are used for audit
                       compliance and to track the effectiveness of
                       money distributed to victims.
VOITIS IPR             This is a subaward system for recipients of VOITIS
                       grants.
WebFocus               This system allows access to mainframe legacy
                       databases housed at the Rockville Data Center.




                                - 63 -
                                       APPENDIX 6

OFFICE OF JUSTICE PROGRAMS’ RESPONSE
     TO THE DRAFT AUDIT REPORT




               - 64 -
- 65 -
- 66 -
- 67 -
                                         APPENDIX 7

OFFICE OF COMMUNITY ORIENTED POLICING SERVICES’
          RESPONSE TO THE DRAFT REPORT




                     - 68 -
- 69 -
- 70 -
- 71 -
- 72 -
- 73 -
- 74 -
- 75 -
- 76 -
- 77 -
- 78 -
- 79 -
- 80 -
                                                               APPENDIX 8

        OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
       SUMMARY OF ACTIONS NEEDED TO CLOSE THE REPORT

      In its June 30, 2003, response to the OIG draft report, the Office of
Justice Programs (OJP) concurred with our recommendations and discussed
the actions it has already taken and will implement in response to the
recommendations.

       In its June 27, 2003, response, the Office of Community Oriented
Policing Services (COPS) agreed with the two recommendations directed to
it. However, the COPS Office took exception to how we presented various
information in the report and to some of the conclusions we reached about
the COPS Office. The COPS Office asserted that the information in its
response would “put certain points raised by the OIG about our programs
and our relationship with the OJP in context.”

      In this following analysis of the COPS Office response, we disagree
with many of the COPS Office’s comments and characterizations about the
OIG report. We do not address all of the comments individually, but instead
provide below a response to the most relevant issues raised by the COPS
Office’s response. After that, we address the OJP and COPS Office’s
responses to each of our individual recommendations.

The COPS Office’s Initial Grant Programs

      The COPS Office contends that our report did not put into proper
perspective the fact that OJP awarded the 392 initial Phase I COPS grants for
the COPS Office. As a result, the COPS Office suggests that our report
unfairly characterized OJP’s awarding of these grants as an example of the
COPS Office’s reliance on OJP.

       Contrary to the COPS Office’s contention, we accurately presented the
facts that OJP awarded the first 392 Phase I COPS grants for the COPS Office
early in FY 1995 because the COPS Office was not ready to do so quickly
after being established late in 1994. We also stated that the COPS Office
went on to award about 7,000 grants during the remainder of FY 1995.
While the number of grants awarded by OJP for the COPS Office appears
small, as we indicated in the report, it was the first of many actions
performed by OJP for the COPS Office.




                                   - 81 -
The COPS Office’s Reimbursable Agreement with OJP

      The COPS Office took exception to our statement that the COPS Office
continually turned to OJP for services related to the COPS program. The
COPS Office stated that each year the list of services obtained from OJP
through a reimbursable agreement is reassessed and modified and that since
the beginning of the COPS program the utilization of OJP’s services by the
COPS Office has decreased. The COPS Office further stated that the list of
services we provided in the draft report does not accurately reflect the
specific services currently received from OJP. In addition, the COPS Office
indicated that the reimbursable agreements allowed it to utilize available,
pre-existing resources of other agencies, rather than reinventing the wheel,
and made for cost-effective use of Federal government resources.

       The facts related to the COPS Office’s use of a reimbursable agreement
with OJP to obtain services related to the COPS program clearly support that
the COPS Office continually relied upon OJP for such services. The report
disclosed that for FY 1999 through FY 2002, the COPS Office transferred
about $16 million in management and administration costs to OJP through
reimbursable agreements for OJP to perform COPS-related services. The
audit report also graphically illustrated that the amounts transferred
decreased in FY 2000 and FY 2001, but increased in FY 2002 to the FY 2000
level. In addition, the list of services included in the audit report was
current at the time of the audit and was verified by both COPS and OJP
during the audit and after the exit conference in April 2003. We cannot
comment on any modifications to the list of services after the exit
conference, since the COPS Office did not provide any documentation with
its response to support such modifications.

      We do not take issue with the COPS Office’s contention that
reimbursable agreements allowed it to use existing resources of OJP rather
than “reinventing the wheel.” We reported that the COPS Office’s use of
reimbursable agreements indicates that OJP was better suited to provide the
functions for the COPS program. We did not examine in detail the use of
reimbursable agreements to confirm whether they are more cost-effective,
as the COPS Office contends. Moreover, whether or not the COPS Office’s
assertions about reimbursable agreements are true does not change the fact
that the COPS Office relied on OJP to perform services related to the COPS
program. Therefore, we believe the report fairly presents the COPS Office’s
use of reimbursable agreements as a method of reliance on OJP to perform
COPS-related services.




                                   - 82 -
COPS Funds Passed Through to OJP

       The COPS Office commented that almost all of the funds that the COPS
Office passes through to OJP are mandated by Congress in the COPS Office’s
annual appropriations language. The COPS Office also commented that the
earmarked funds passed through to OJP are for either continuing projects
previously administered by OJP or existing projects within OJP. The COPS
Office also stated that discretionary pass-through funds are for projects
jointly managed by the COPS Office and OJP.

       Our report clearly identified that most of the funds passed through
from COPS to OJP were mandated by Congress. In addition, our report also
clearly indicated the reasons as reiterated in the COPS Office’s response for
why earmarked and discretionary funds are passed through to OJP.
Accordingly, the report fairly presents that the amount of funds passed
through from the COPS Office to OJP has steadily increased and reached
almost 40 percent of the COPS Office’s total budget for FY 2002.

Comparison of the COPS Office’s Costs to Manage and Administer
Grants

      The COPS Office contends that we did not provide it with the details of
how we calculated the ratios of management and administration (M&A) costs
per program dollar and per grant administered. The COPS Office stated that
it appears that we reached our conclusion by comparing the COPS Office’s
M&A costs in one fiscal year to the amount of COPS grants awarded in that
year. The COPS Office also stated that while it has reduced its M&A costs to
program dollar ratio over the years, it would be imprudent for a program
managing over $8 billion in active grants to further reduce personnel costs
while continuing to effectively safeguard Federal funds. In addition, the
COPS Office also stated that by looking at only the amount of grants
awarded in a given year, our analysis does not take into account the work
required for new program implementation and application processing.

      The COPS Office is inaccurate when it states that we did not provide it
with the details of how we calculated the ratios of management and
administration (M&A) costs per program dollar and per grants administered.
On several occasions during the audit and again at the exit conference, we
informed top COPS Office officials of the methodology we used to calculate
the ratios of M&A costs to program dollars and to grants administered. For
the ratio of M&A costs to program dollars, the COPS Office and OJP were not
able to provide data showing the amount of M&A costs used to administer
current year program dollars versus the amount used to administer previous
years program dollars. Accordingly, we only were able to show the ratio of

                                    - 83 -
actual M&A costs spent during the fiscal year to the actual program dollars
spent during the fiscal year. The source documents used to obtain the
actual program dollars and M&A costs were verified by the COPS Office and
OJP after the exit conference.

      Further, the COPS Office’s argument fails to take into account that our
analysis was consistently applied for both the COPS Office and OJP.
Therefore, the analysis fairly presents the COPS Office’s M&A costs ratios as
compared to OJP’s. In addition, contrary to the COPS Office’s contention,
our analysis of M&A costs to grants administered did not compare the M&A
costs to the grants awarded in one fiscal year, but instead compared the
M&A costs spent in each fiscal year to the total active grants (awarded plus
ongoing) administered during that fiscal year. Therefore, the analysis fairly
presents that the COPS Office’s M&A costs per grants administered have
been increasing steadily while OJP’s have been decreasing.

Purposes of COPS Grants and OJP Grants

       The COPS Office takes exception to our conclusion that the COPS
Office’s grants for hiring law enforcement personnel and for purchasing
equipment and technology duplicate some awards made under OJP’s Local
Law Enforcement Block Grant (LLEBG) program. The COPS Office contends
that the two programs are not duplicative since under the COPS grants the
grantees are required to use the funds to advance community policing while
under OJP’s LLEBG grants the grantees may choose to support community
policing with the funds but are not required to do so. In addition, the COPS
Office stated that the potential grantees are selected for awards from
different pools under different funding criteria. Specifically, the COPS Office
stated that the LLEBG grants are limited to jurisdictions based on the
number of Uniform Crime Report Part I violent crimes reported to the FBI
while all state, local, federally recognized tribal and public law enforcement
agencies are eligible to apply for COPS Office grants. The COPS Office also
stated that the three situations we cited as being duplicative were situations
where the grantees made complimentary use of different funding sources to
add to, but not duplicate, the same crucial law enforcement purpose. The
COPS Office’s response for each situation follows:

      Orange County, Florida Sheriff’s Office: The COPS Office stated that
      the COPS grant funds were limited in the types of technology that
      could be purchased under the grant and that the grant required that
      the purchased technology result in the redeployment of officers into
      community policing. The COPS Office stated that the OJP LLEBG grant
      funds were used to purchase technology that was not allowable under


                                     - 84 -
      the COPS grant. Therefore, COPS contends the grants were not
      duplicative.

      City of Orlando, Florida: The COPS Office stated that like the Orange
      County situation, the OJP LLEBG grant was used to purchase safety
      equipment that was beyond the scope of the COPS-funded Secure Our
      Schools (SOS) grant. Therefore, COPS contends the grants were not
      duplicative.

      City of Daytona Beach, Florida: The COPS Office stated that while the
      grantee did use the COPS grant funds to hire seven officers and the
      OJP LLEBG grant funds to hire five officers to perform community
      policing, the grants were not duplicative because the COPS grant was
      for three years and required the officers to perform community
      policing while the LLEBG grant was only for one year and the grantee
      voluntarily chose to use the officers to perform community policing.

       The COPS Office is incorrect in its contention that the COPS hiring and
technology grants are not duplicative of grants awarded under OJP’s LLEBG
grants. The fact that the COPS grant is required to advance community
policing while the LLEBG grants are not does not change the fact that the
two grants are sometimes used for the same or similar purposes as we
identified in the report. When such cases occur, the grants are, in fact,
duplicative. We also believe that for the three situations cited in the report
the grants were duplicative, as explained below.

      Orange County, Florida Sheriff’s Office: While the COPS Office stated
      that the OJP LLEBG grant funds were used to purchase technology that
      was not allowable under the COPS grant, we found the opposite to be
      true. We obtained documentation during the audit that showed both
      the COPS technology grant and the OJP LLEBG grant were used to
      purchase similar computers and related software/accessories.

      City of Orlando, Florida: While the COPS Office stated that the OJP
      LLEBG grant was used to purchase safety equipment that was beyond
      the scope of the COPS-funded Secure Our Schools (SOS) grant, we
      found the opposite to be true. We obtained documentation during the
      audit to show that the grantee used the OJP LLEBG grant to obtain
      video camera security systems for two schools. Based on the COPS
      Office’s criteria for the COPS SOS grants, the SOS grants can be used
      to purchase the video equipment purchased by the grantee under the
      OJP LLEBG grant.



                                    - 85 -
      City of Daytona Beach, Florida: The COPS Office’s argument for this
      situation is not well based. Regardless of whether the grants were for
      three years or one year and whether the grantee was required to or
      voluntarily hired officers to perform community policing, the fact is
      that the COPS hiring grant and OJP LLEBG grant were used for the
      same purpose.

Capability to Apply for Grants Online

      The COPS Office provided a lengthy discussion of information
regarding the actions it has taken to develop an on-line grant application
capability, much of which COPS stated was ongoing prior to the initiation of
our audit.

       While we acknowledged some of the COPS Office’s actions in our
report, the COPS Office did not disclose to us during the audit many of the
actions it cited in its response to the draft report. In addition, the COPS
Office did not provide any evidence in its response to support the type and
timing of the actions taken. The COPS Office, however, did agree to
continue actions to develop an on-line application capability that would allow
it to receive grant applications and to download the application data directly
into the COPS management system.

Current Status of Prior Audits

      The COPS Office stated that our discussions of the two prior audits
related to the COPS program should be put into context with subsequent
facts and events. The COPS Office’s comments regarding each of the prior
audits is as follows:

      April 1999 Summary Report: The COPS Office stated that this report
      of COPS grantees did not “conclude” that the grantees incurred
      unallowable costs, supplanted, failed to provide timely grant reports,
      failed to plan to retain the officers after the grants expired, or
      committed any other grant violations. The COPS Office stated that our
      report instead made allegations of possible violations that are then
      subject to a complete investigation and final resolution with each
      audited grantee before the allegations can be considered sustained.
      The COPS Office stated that after an exhaustive six-month review by
      an independent arbiter hired by the Department of Justice, the arbiter
      found that the grantees were not in violation of the grant conditions in
      almost 40 percent of the sampled audit findings reviewed.



                                    - 86 -
      July 1999 Internal Management and Administration Report: The COPS
      Office stated that the status of this report was not completely set
      forth. The COPS Office stated that all the recommendations in the
      report were closed by the OIG by June 2000 and that there are no
      continuing issues from the three-year old audit.

       In its attempt to place our prior audits of the COPS program into a
context that supported its position, the COPS Office misstated the facts
regarding the two reports. Contrary to the COPS Office statements
regarding the April 1999 Summary Report, the report did in fact conclude
that the COPS grantees incurred unallowable costs, supplanted, failed to
provide timely grant reports, failed to plan to retain the officers after the
grants expired, or committed other grant violations. The findings in the 149
individual COPS grant audit reports that were summarized in the report were
not “allegations” of possible violations as the COPS Office contends.
Instead, the findings were supported by evidence as described in each
individual audit. The accuracy of our findings was evidenced by the fact that
in the majority of the sampled issues either the arbiter found or the COPS
Office concluded that the grantees were, as originally reported, not in
compliance with certain grant conditions at the time of the audit. In the
remaining issues, the arbiter found that the grantees were in compliance
based on the totality of the information available at the time of the audit—
including information that was not provided to the OIG by the grantees but
was provided to the arbiter for the first time.

      As for the July 1999 Internal Management and Administration Report,
the COPS Office is incorrect in stating that the status of this report was not
completely set forth in the draft audit report. Contrary to the COPS Office’s
assertion, the draft audit report disclosed that the COPS Office and OJP had
reported taking corrective actions to address the issues in the report and
that the audit report was closed.

Recommendation Number

1.   Resolved. The COPS Office and OJP agreed to coordinate and
     exchange information about grant programs to ensure duplicative
     awards are not made to the same grantee by both agencies. The COPS
     Office stated the coordination and exchange of information would take
     place throughout the year while OJP stated the coordination and
     exchange would take place at the beginning of each fiscal year. We
     can close this recommendation when we receive documentation of
     procedures developed and agreed to by the COPS Office and OJP
     showing how and when the coordination and exchange of information


                                    - 87 -
     will take place and how they will ensure duplicative awards are not
     made to the same grantee for similar purposes.

2.   Resolved. The COPS Office agreed to continue to develop an on-line
     application system for COPS grants. We can close this recommendation
     when we receive documentation showing that the COPS Office has
     developed an on-line application system for COPS grants that will allow
     potential grantees to complete grant applications on-line and that
     supports the downloading of on-line application data directly to the
     COPS Management System for processing.

3.   Resolved. OJP agreed with the recommendation and stated that it
     began a two-phase reorganization plan in 2001. OJP stated that it had:
     1) merged the programs and staffs of the Corrections Program Office
     and the Drug Courts Program Office into the Bureau of Justice
     Assistance, 2) created the Office of the Chief Information Officer, and
     3) merged the Office of Congressional and Public Affairs and other
     dissemination functions into one office. OJP stated that in the near
     future it will: 1) consolidate several administrative and support
     functions into the Office of Management and Administration; and
     2) merge the programs, functions, and staff of the Executive Office for
     Weed and Seed and the American Indian/Alaska Native Affairs Desk into
     the Community Capacity Development Office.

     As noted in the audit report, we found that OJP intends to implement its
     reorganization in three phases, not two. In the third phase, OJP plans
     to obtain revisions to existing statutes that provide final grant-making
     authority to OJP’s bureaus instead of to the Attorney General or
     Assistant Attorney General for OJP. We can close this recommendation
     when we receive documentation showing the three phases of the
     reorganization plan have been implemented.

4.   Resolved. OJP agreed with the recommendation and stated that it had
     embarked upon a multi-year effort to improve the way it accomplishes
     its mission and serves its customers. OJP stated that it had developed a
     comprehensive Management Plan that identifies and schedules its major
     change initiatives. One of the strategies is to develop internal
     mechanisms to collaborate in targeting resources to maximize impact.
     OJP also cited four recent accomplishments to improve internal
     collaboration. OJP also stated that it would investigate the need for
     better internal collaboration and establish more formal organized
     methods to collaborate where needed. We can close this
     recommendation when we receive a copy of OJP’s Management Plan and
     the formal organized methods of collaboration developed by OJP to

                                    - 88 -
     ensure that overlapping programs that exist after the reorganization is
     implemented are identified and eliminated.

5.   Resolved. OJP agreed with the recommendation and stated that it is
     on track to fully implement the Grants Management System (GMS)
     Build-Out program by the end of December 2003, an achievement that
     will fully automate the OJP “Redbook” process from solicitation to close-
     out. We can close this recommendation when we receive
     documentation showing that OJP has completed the GMS Build-Out
     program and that it fully automates the OJP “Redbook” process from
     solicitation to close-out.

6.   Resolved. OJP agreed with the recommendation and stated that it is
     on track to implement, by the end of December 2003, an enhanced GMS
     system with modules that will expand the system to manage grants
     from beginning to end. We can close this recommendation when we
     receive documentation showing that OJP has implemented the enhanced
     GMS system and that the enhanced GMS system manages grants from
     beginning to end.

7.   Resolved. OJP agreed with the recommendation and stated that it was
     on track to eliminate duplicative systems by the end of December 2003.
     OJP stated that in coordination with the GMS Build-Out program, the
     Office of the Chief Information Officer initiated the Legacy Brown-Out
     program to eliminate overlapping or duplicative automated systems
     after each phase of the GMS Build-Out program is implemented. We
     can close this recommendation when we receive documentation showing
     that OJP has completed the Legacy Brown-Out program and eliminated
     the overlapping or duplicative systems.

8.   Resolved. OJP agreed with the recommendation and stated that all
     OJP bureaus and program offices were mandated to use GMS for all
     grant solicitations and awards opened or announced after January 31,
     2003, except for awards made under the State Criminal Alien Assistance
     Program and the Local Law Enforcement Block Grant program. OJP
     stated that these two programs already were considered a part of OJP’s
     electronic grant management system. We can close this
     recommendation when we receive documentation showing how OJP
     plans to monitor the bureaus to ensure they use the GMS system to
     enable grantees to submit grant applications online for all bureau grant
     programs.




                                    - 89 -
